                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General
Office of Inspector General

                              Semiannual Report to the Congress


                              October 1, 2004 to March 31, 2005
                           Summary of OIG Accomplishments




Financial Results:
Questioned costs
      Issued during the reporting period                                   $ 5,099,000
      Management decision during the reporting period                      $ 7,144,000

Recommendations for funds to be put to better use
      Issued during the reporting period                                   $ 21,753,000
      Management decision during the reporting period                      $   0

Investigative recoveries                                                   $153,289

Investigative Results:
Cases opened                                   33
Cases closed                                   22
Judicial actions                               28
Administrative actions                         29
Hotline and complaint activity                211

Reports Issued:                                61



                  Pictured on the front cover: Embassy Chisinau, Moldova



                              Requests for additional copies of this
                              publication should be addressed to:

                                     Office of Inspector General
                                     U.S. Department of State
                                     OIG/ADM, Room 810
                                     1700 North Moore Street
                                     Arlington, VA 22209



                             Department of State Publication 11193
                                  Office of Inspector General
                                   TABLE OF CONTENTS




Executive Summary ................................................................................ 1
Congressional Activities and Outreach. ............................................. 7

DEPARTMENT OF STATE
Security ...................................................................................................... 13
Audits ........................................................................................................ 15
Inspections. .............................................................................................. 29
Information Technology ....................................................................... 43
Investigations........................................................................................... 51
Appendix 1: Investigative Activities ................................................... 57
Appendix 2: Reports Issued ................................................................. 59
Appendix 3: Savings and More Effective Use of Resources
    Table 1: Questioned Costs ............................................................. 63
    Table 2: Funds to be Put to Better Use ...................................... 63

BROADCASTING BOARD OF GOVERNORS
Audits ........................................................................................................ 69
International Broadcasting Oversight ................................................ 71
Appendix 1: Investigative Activities ................................................... 75
Appendix 2: Reports Issued ................................................................. 77
Appendix 3: Savings and More Effective Use of Resources
     Table 1: Questioned Costs ............................................................ 79
     Table 2: Funds to be Put to Better Use ..................................... 79
List of Abbreviations ............................................................................ 81
Index of Reporting Requirments ....................................................... 83
                          EXECUTIVE SUMMARY

The Office of Inspector General (OIG) reviewed and monitored programs, activi-
ties, and operations of the Department of State (Department) and Broadcasting
Board of Governors (BBG) during this semiannual period. Aligned with OIG’s
strategic goals, which support and assist the Department and BBG, selected re-
views for this reporting period are highlighted below.




Adequately Protect the People, Information, and
Facilities in the United States and Abroad

OIG made recommendations to eliminate unnecessary duplication, ensure account-
ability, and improve management in the Bureaus of Arms Control, Nonprolifera-
tion, and Verification and Compliance. In response to these recommendations, the
Secretary of State established a task force to merge the Bureaus of Arms Control
and Nonproliferation and to redefine the Bureau of Verification and Compliance as
a specialized entity rather than a bureau. (See ISP-I-05-03, ISP-I-05-49, and ISP-I-
05-51.)

OIG examined the Department’s Anti-terrorism Assistance Program (ATA), and
found that the program has successfully met training needs since September 11,
2001. It has trained and assisted more than 36,000 foreign security and law en-
forcement personnel from 130 countries since its inception. OIG recommended
ways to strengthen the program, such as: reassessing program responsibilities in
light of the program’s substantial growth; evaluating the staffing of the program to
ensure enough direct-hires for the long-term stability of the program; and account-
ing completely for all weapons acquired for use in the program’s four overseas, in-
country training programs. (See SIO-A-05-11.)

OIG’s review of the Bureau of Diplomatic Security (DS), Directorate of Security
Infrastructure noted that the widespread use of contractors was necessary and in
keeping with the President’s Management Agenda goal of outsourcing. OIG made
recommendations to improve contract management and to address vulnerabilities
currently affecting the Directorate’s information collection and retention practices.
(See ISP-I-05-45.)


Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   1
     Effectively, Efficiently, and Economically
     Advance the Foreign Policy Interests of the
     United States

     OIG surveyed the Department’s funding for Iraqi-related activities to identify and
     quantify funding earmarked for Iraq and methods or financial instruments used to
     convey funds to others, such as contractors or grantees. From this work, OIG
     compiled an inventory of Department obligations amounting to about $1 billion.
     OIG consolidated the information into a database, which will facilitate future audit
     efforts. (See AUD/CG-05-18.)

     OIG examined the Department’s support of Embassy Baghdad in facilities not
     located in Iraq. OIG determined that better coordination is needed between
     Embassy Baghdad and the logistical and travel support units located in Amman,
     Jordan; Kuwait City, Kuwait; and Washington, DC. OIG recommended an im-
     proved regional support model, standard operating procedures, and memoranda of
     understanding to clarify roles and responsibilities. (See ISP-IQO-05-53.)

     OIG’s inspection determined that Embassy Amman’s support for Embassy
     Baghdad significantly affects Embassy Amman’s mission. OIG is concerned about
     Embassy Amman’s overcrowding issues and noted several safety deficiencies
     meriting immediate corrective action. OIG praised the embassy’s consular section
     for its high-quality services for both Iraq and Jordan. OIG recommended eliminat-
     ing unnecessary duplication of support services handled by the Department and the
     U.S. Agency for International Development (USAID). (See ISP-I-05-02A.)

     A key priority for Embassy Cairo is reaching out to the Egyptian public, given that
     a recent study found that only six percent of Egyptians think favorably of the
     United States. OIG recommended that Embassy Cairo expand the audience
     receiving the U.S. message by increasing the number of embassy officers involved
     in public diplomacy, developing American Centers, and increasing access to Radio
     Sawa. (See ISP-I-05-04A.)

     In a summary report, OIG determined that the integration of public diplomacy
     functions into the Department is incomplete. OIG recommended that the Depart-
     ment ask that Congress review the Smith-Mundt Act’s continued relevance. OIG
     advised the Department to seek greater representation at the National Security
     Council to ensure better and continuing coordination of interagency public diplo-
     macy activities. (See ISP-I-05-54.)



2   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
OIG’s inspection of operations at the U.S. International Boundary and Water
Commission (USIBWC) identified internal management problems that undermined
morale and led to an alarming departure of key personnel, which threatened the
Commission’s ability to conduct its essential responsibilities for flood control and
water management in the American Southwest. OIG recommended that the
Commission’s personnel structure and policies be aligned more closely with those
of the Department. (See ISP-I-05-26.)

OIG assessed BBG’s program management and performance and management
controls at the Delano Transmitting Station. Some of the challenges included
technical staff attrition, dated equipment, and state regulatory restrictions and
rules. OIG determined that the station needs to take deliberate steps to ensure it
has skilled employees at the ready. (See IBO-I-05-05.)

OIG reviewed the interagency agreement between BBG and USAID to use Radio
Sawa to fill the void in communications in post-conflict Iraq. The objectives were
to determine whether:

• USAID funds transferred to BBG were used effectively to enhance the dissemi-
    nation of humanitarian and other information in Iraq; and

• BBG successfully launched the three program components of the interagency
    agreement:

    • establishing a stringer network;
    • airing programs that address humanitarian and reconstruction efforts; and
    • conducting audience research.
According to USAID officials, BBG did not use the transferred funds to enhance
the dissemination of reports of humanitarian and related information to Iraq. As a
result USAID provided only partial funding to BBG.




Implement the Necessary Financial and Support
Systems and Controls To Meet Legal and
Operational Requirements

In compliance with the Chief Financial Officers Act, as amended, OIG oversaw
the audit of the Department’s 2004 and 2003 principal financial statements that


Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   3
     was performed by an independent external auditor. Although the independent
     external auditor issued an unqualified opinion, the report brings to the
     Department’s attention concerns about the security of:

     • the unclassified network;
     • adequacy of internal controls over the management of undelivered orders;
     • the collection and reporting of managerial cost accounting information; and
     • the adequacy of the Department’s financial and accounting system. (See
          AUD/FM-05-09, AUD/FM-05-07, AUD/FM-05-06.)

     OIG conducted several audits examining compliance with federal contracting and
     grants procedures and requirements. Among them, OIG reviewed a termination for
     convenience proposal for a contract in Havana, Cuba. OIG examined whether the
     proposal was prepared in compliance with contracting standards and assessed
     whether claimed costs were incurred, reasonable, allowable, and allocable. OIG
     determined that the proposed termination costs were mathematically correct.
     However, OIG questioned the entire amount claimed, just over $4 million, because
     the contractor did not submit the proposal in accordance with regulations. (See
     AUD/CG-05-22.)

     In response to interest expressed by several Department bureaus, OIG reviewed
     selected grants to MiraMed Institute for 2003 and 2004. MiraMed received the
     awards through agreements with the International Organization for Migration,
     which the Department funds. OIG examined whether MiraMed could adequately
     account for federal funds and complied with applicable federal laws and regulations
     related to the terms and conditions of the agreements. OIG determined that
     MiraMed operated with a deficient accounting system, lacked a cost allocation
     policy, and had inadequate internal controls over financial transactions. OIG
     questioned about 43 percent of costs claimed and recommended that the Depart-
     ment withhold or restrict funding to MiraMed until it acquires adequate accounting
     systems and controls suitable for handling federal funds. (See AUD/CG-05-23.)

     OIG conducted several audits of the Department’s procurement activities. Of key
     interest was a review of excessive fuel charges in support of the Jordan Interna-
     tional Police Training Center. OIG determined that a subcontractor overbilled the
     Department about $600,000, for which the primary contractor fully reimbursed the
     Department. OIG’s review of the delivery and receipt of diesel fuel showed that
     the contractor did not follow internal control procedures. Fuel tanks were inad-
     equately secured to prevent theft, and when thefts were reported, no action was



4   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
taken to secure the tanks. OIG recommended that the Department require the
contractor to secure all fuel tanks to prevent theft of diesel fuel. (See AUD/PPA-
05-17.)

OIG compiled and summarized information system security issues identified in FY
2004 to perform an overall assessment of the Department’s global information
technology (IT) modernization. OIG identified several opportunities for improving
information security and information management, including strengthening man-
agement and technical control procedures. (See IT-I-05-01.)

The Chief Financial Officers Act, as amended, applies to BBG. OIG oversaw the
audit of BBG’s 2004 Balance Sheet by the independent external auditor. The
accompanying Statement of Net Cost, Statement of Changes in Net Position,
Statement of Budgetary Resources, and Statement of Financing were not audited.
Although BBG received an unqualified opinion, the report and the separate man-
agement letter brought several matters of concern to BBG management’s attention.
(See AUD/FM-05-12 and AUD/FM-05-14.)




Ensure Accountability and Prevent or Eliminate
Waste, Fraud, Abuse, and Mismanagement

In a joint investigation with the Departments of Labor, Internal Revenue Service,
Federal Bureau of Investigation, and Homeland Security (DHS), OIG determined
that an employment and immigration services company may have falsified employ-
ment-based visa applications on behalf of its employer clients. Seven individuals
have been indicted on charges of conspiracy to commit immigration fraud, con-
spiracy to encourage an alien to unlawfully enter the United States, money launder-
ing, and misprision of a felony.

OIG also investigated a Department employee for selling U.S. government-pur-
chased cellular telephones and airtime to private individuals. The employee re-
signed from the Department upon disclosure of his activities in lieu of being
terminated. The employee later pleaded guilty to theft, was sentenced to six
months’ home confinement, three years’ probation, a $100 fine and restitution
amounting to nearly $22,000. As a result, OIG issued a management assistance
report recommending changes to improve controls over the cellular telephone
program.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   5
6   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
      CONGRESSIONAL ACTIVITIES AND
               OUTREACH

Testimony

On March 15, 2005, the Senate Foreign Relations Committee held a confirmation
hearing and considered the President’s nomination of Howard J. Krongard as the
next Inspector General of the Department and BBG. The Senate confirmed Mr.
Krongard on April 27, 2005, just before the issuance of this report.



Congressional Mandates and Requests
In response to legislative mandates and requests from Congress, OIG conducted
the following reviews during this semiannual period:

• As mandated under Section 832 of the Intelligence Authorization Act (Pub. L.
    No.107-306), OIG conducted the 2004 evaluation of the Department’s policies
    and procedures for protecting classified information at the Department’s
    headquarters. See Protection of Classified Information at State Department Head-
    quarters (Report Number SIO-A-05-13).

• In compliance with the Chief Financial Officers Act, as amended (Pub. L.
    No.101-576), OIG selected an independent external auditor to audit the
    Department’s principal financial statements. As required by OMB Bulletin 01-
    02, the audit included an assessment of whether those statements fairly
    presented the Department’s financial position in compliance with generally
    accepted accounting principles and assessed the adequacy of internal controls,
    including controls over relevant automated systems. The independent external
    auditor issued an unqualified opinion on the Department’s 2004 and 2003
    Principal Financial Statements. See Audit of the U.S. Department of State 2004
    and 2003 Principal Financial Statements (Report Number AUD/FM-05-09).

• In addition, the auditor’s IT expert reported that the security features of the
    application it reviewed functioned correctly and were well managed. See
    Vulnerability Assessment of the Foreign Affairs Retirement and Disability System (Report
    Number AUD/FM-05-07).


Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   7
     • The Chairman of the House International Relations Committee and the Rank-
          ing Member of the Senate Foreign Relations Committee asked OIG to examine
          the Department’s failure to report several international agreements to Congress.
          OIG recommended improving accountability and the management controls for
          the treaty and agreement actions. See Review of Treaty Management Responsibilities
          in the Office of Treaty Affairs (Report Number ISP-C-05-01).

     • The Chairman of the House Judiciary Committee, asked OIG to conduct a
          review of the Department’s visa adjudication process. See Nonimmigrant Visa
          Adjudication Process (Report Number ISP-CA-05-56). In addition, the Chairman
          requested OIG to conduct a review of the standards for refusing nonimmigrant
          visa applications to determine how consular officers were applying section
          214(b) of the Immigration and Nationality Act. (See Nonimmigrant Visa: Adjudi-
          cations:Standards for Refusing Applicants (ISP-CA-05-58)

     The Acting Inspector General and OIG staff met with congressional staff to brief
     them and obtain comments on a variety of Department and BBG operations and
     programs as well as OIG’s recent reorganization. The Committees included the
     Senate Foreign Relations, Select Committee on Intelligence, and Homeland Secu-
     rity and Governmental Affairs; and the House Appropriations Subcommittee on
     Commerce, Justice, State and the Judiciary; and Committees on International
     Relations, Government Reform, and the Judiciary.



     Outreach/Media Assistance
     OIG participated in two Foreign Service officer orientations and other courses
     offered by the Foreign Service Institute to inform all new employees on the role,
     mission, and services provided by OIG. In addition, the Acting Inspector General
     or Deputy briefed each newly appointed ambassador, before departure, on issues
     related to their assigned embassies. As part of OIG’s anticorruption outreach,
     foreign delegations met with OIG to learn about government oversight.

     Members of the media inquired about several OIG reviews, including the
     Department’s Global Terrorism Report, Radio Sawa, the U.S. International Bound-
     ary and Water Commission, OIG’s recruitment efforts, Iraqi Police Training, Iraqi
     Cashiering, the Iraqi National Congress Support Foundation, the Department’s
     development assistance programs, the Bureau of Arms Control and International
     Security, and Embassy Kuwait.




8   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
Legislation Monitored
Some of the bills OIG’s legislative staff monitored include the following:

• S. 600 - Foreign Affairs Authorization Act, Fiscal Years 2006 and 2007
• H.R. 1268 - Fiscal 2005 Emergency Supplemental for Iraq/Tsunami Relief
• H.R. 4548 - To authorize appropriations for fiscal year 2005 for intelligence
    and intelligence-related activities of the United States Government, the Com-
    munity Management Account, and the Central Intelligence Agency Retirement
    and Disability System, and for other purposes (became Pub. L. No.108-798)

•   S. 2845 - A bill to reform the intelligence community and the intelligence and
    intelligence-related activities of the United States Government, and for other
    purposes (became Pub. L. No.108-796)

• H.R. 4818 - The Foreign Operations, Export Financing, and Related Programs
    Appropriations Act, 2005, also known as the Consolidated Appropriations Act,
    2005 (became Pub. L. No.108-447)

• S. 2537 and H.R. 4567 - The Department of Homeland Security Appropria-
    tions Act, 2005 (became Pub. L. No.108-334)




Implementation of the Government Performance
and Results Act and the President’s
Management Agenda

As part of its inspections and audits, OIG selectively evaluates the Department’s
progress in implementing the Government Performance and Results Act (Results
Act) and the President’s Management Agenda, with particular attention to improv-
ing financial management, budget and performance integration, and rightsizing of
the U.S. overseas presence. For each mission or bureau inspected, OIG reviews
mission and bureau performance plans and determines whether staff resources
meet the Department’s and OMB’s rightsizing guidance. During this reporting
period, for example, OIG identified rightsizing issues at embassies Amman,
Bucharest, Cairo, Chisinau, and Paris and the Bureau of Political-Military Affairs.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   9
      OIG reviews selected performance measures, as appropriate, in connection with
      audits and other reviews. The Department uses OIG’s reports to identify resource
      and performance issues for future performance budget requests and for senior
      reviews with the Deputy Secretary and as evidentiary support for program evalua-
      tions conducted under OMB’s Program Assessment Review Tool (PART).

      The Department is on track in establishing an effective planning process; it is
      developing meaningful performance measures, linking resources to goals, and
      evaluating program effectiveness. With the USAID, the Department has estab-
      lished a joint strategic plan to ensure better alignment of foreign assistance and
      foreign policy goals.

      Improvements in the Department’s automated planning software have tied the
      PART evaluations into the Bureau Performance Plans. Regional and functional
      bureaus have strengthened their planning coordination and used their plans more
      effectively as management tools.

      These improvements have allowed the Department to meet OMB’s criteria for
      achieving a “green” score on the President’s Management Agenda initiative on
      integrating budget and performance. As a result, OIG was able to remove strategic
      planning and budget integration from its list of major management challenges
      facing the Department. (See Performance and Accountability Report).




10   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
                                              United States Department of State
                                              and the Broadcasting Board of Governors

                                              Office of Inspector General



                                                 April 29, 2005

MEMORANDUM

TO:             The Secretary

FROM:           OIG – Cameron R. Hume, Acting

SUBJECT:        Semiannual Report to Congress, October 1, 2004 to March 31, 2005

I am pleased to transmit to you the Office of Inspector General’s Semiannual Report to
the Congress for the period ending March 31, 2005. During this reporting period, OIG
reviewed and monitored programs, activities, and operations of the Department,
considering them in light of, among other factors, OIG’s strategic goals which support
and assist the Department.

OIG recently reorganized to realize greater efficiency and effectiveness in conducting its
work. A peer review by the Department of Interior’s OIG that identified concerns with
OIG’s audit structure was central to the decision to reorganize. OIG is now more
closely aligned with its core functions of audits, inspections, and investigations. OIG
remains committed to delivering high-quality reviews of Department programs and
operations.

A major component of OIG’s work entails oversight of Department operations in and
related to Iraq. During this period, OIG surveyed the Department’s funding for Iraqi-
related activities and compiled an inventory of Department actions obligating $1 billion.
OIG examined the Department’s efficiency and effectiveness in support of Embassy
Baghdad and its constituent posts using facilities not located in Iraq.

Relevant to the Department’s goal of advancing U.S. foreign policy interests, OIG
inspections covered issues of border security, rightsizing, and regionalization. OIG
reviewed several Department consular programs contributing to the nation’s border
security. One review examined the management of consular fraud prevention programs
in the Bureau of Consular Affairs and Diplomatic Security in light of the process changes
since September 11, 2001. OIG also reviewed the vulnerabilities of the Watch List
used in analyzing U.S. passport applications. In addition, in response to a congressional
request, OIG reviewed the Department’s procedures for issuing visas and determining
whether they could be issued to unqualified applicants owing to the exertion of
inappropriate pressures.

During this period, OIG conducted six security management reviews and two special
security reviews. In a review of the Department’s Anti-terrorism Assistance Program,
OIG found that the program has been successful in meeting training needs since
September 11, 2001.

OIG continues to assist the Department in preparing its principal financial statements
and assessing the Department’s support systems and controls that help meet federal
requirements. Several audits examined the Department’s contracting and grants
procedures. Other audits recommended improvements to information technology
security and management.

This report is required by the Inspector General Act of 1978, as amended, and covers
the work of this office during the period indicated. The Act requires that you transmit
the report to the appropriate committees of the Congress by May 31, together with any
comments you may wish to make.
                                     SECURITY


During this period, OIG conducted six security management inspections and
reviews and two special reviews: the protection of classified information at Depart-
ment headquarters and the first phase of the Department’s Anti-terrorism Assis-
tance Program. The other six security reports are summarized in a separate, classi-
fied annex to this report. (See Appendix 2 of this report for complete list of the
reports issued during this semiannual period.)



Special Reviews


Protection of Classified Information at State
Department Headquarters (SIO-A-05-13)

OIG conducted this congressionally-mandated annual review and also reviewed the
Department’s compliance with Director of Central Intelligence Directives regarding
the storage and handling of sensitive compartmented information (SCI) and remov-
ing access of employees who no longer require it. During this review, OIG found
that the Department met the requirements of the directive on personnel security.
Because of the good working relationships among the many offices involved, the
Department’s SCI clearances are efficiently processed.

OIG found that the Department properly investigated a candidate’s background
and provided security awareness briefings and debriefings. However, OIG also
found the Department should:

• strengthen its filing system for background investigations to ensure that the files
    contain updated and complete information;

• consolidate employee travel-reporting requirements into one DS office; and




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   13
      • monitor the status of a directive that is now being drafted and amend
                                            SECURITY
           Department policies or procedures as needed.

      The Department’s policies and procedures effectively enable SCI personnel to meet
      requirements concerning travel to hazardous countries. SCI personnel must report
      official and unofficial foreign travel and obtain security briefings.



       Program Management Review (Phase I) of the
       Anti-terrorism Assistance Program
       (SIO-A-05-11)

       Table: ATA Program Funding
       (dollars in thousands)
                              FY 2002  FY 2003           FY 2005
       ATA Program            $37,000  $63,200           $128,300
       ATA- Emergency           44,500
       Response Fund
       ATA-Emergency           63,000   25,000
       Supplemental
       Total                  $144,500 $88,200           $128,300

      Source: Data from DS/ATA
       The Department’s ATA program aims to improve the antiterrorism skills of
       friendly nations, strengthen bilateral ties, and increase respect for human rights.
       Since its inception, the program has trained and assisted more than 36,000 foreign
       security and law enforcement personnel from 130 countries.

       OIG found the program successful in meeting the needs for anti-terrorism training,
       but concluded that more improvements could be made. Specifically, the Depart-
       ment should:

       • reassess responsibilities of the Office of the Coordinator for Counterterrorism
           and DS/ATA in view of the program’s growth;

       • evaluate DS/ATA to ensure enough direct-hires to provide long-term stability
           for the program; and

       • have DS/ATA account for all weapons acquired for use at its four overseas
           training programs.




14   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
                                       AUDITS


Contracts and Grants Division


Quality Control Review of KPMG LLP
(AUD/CG-05-27)

OIG performed a quality control review of KPMG LLP’s OMB Circular A-133
audit of the American Institute in Taiwan (AIT) for FY 2003. The objectives were
to:

     • ensure that the audit report that AIT submitted to the Federal Audit
         Clearinghouse was conducted in accordance with applicable standards and
         met the single audit requirements;
     •   identify any follow-up audit work needed; and
     •   identify issues that may require management attention.

The AIT A-133 audit report and associated KPMG LLP working papers met the
applicable auditing guidance and regulatory requirements.



Agreed-Upon Procedures Review of Indirect
Rates and Equipment Delivery Charge Proposed
by [a Department Contractor] and Review of
Accounting System (AUD/IQO-05-24)

At the request of the Department, OIG performed this review. OIG did not take exception to the
proposed indirect rates or equipment delivery charge, but had reservations as to whether the
equipment delivery charge was properly treated as an indirect expense. OIG had similar
reservations about treating the project management office as an indirect expense because
the proposed staffing might not be consistent with the level of effort needed, which
was not known then.


Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   15
      At the time of the review, the contractor did not have a contract cost accounting
      system in place. OIG recommended that if the proposal was successful, the
      contractor should be required to provide detailed procedures to ensure appropriate
      control over direct labor and other direct costs.




      Review of Selected Awards to MiraMed Institute
      (AUD/CG-05-23)

      At the request of Department officials in the Bureaus of European and Eurasian
      Affairs, International Narcotics and Law Enforcement Affairs (INL) and the Office
      of the Under Secretary for Global Affairs, Office to Monitor and Combat
      Trafficking in Persons, OIG reviewed selected awards to the MiraMed Institute for
      2003 and 2004. MiraMed received the awards through agreements with the
      International Organization for Migration, which the Department funds.

      OIG found that timesheets were not used and financial reporting was not timely.
      As a result, OIG identified questioned costs, totaling about $282,825 out of the
      $663,786 claimed. Of this amount, OIG classified $19,339 as unallowable and
      $263,486 as unsupported. Among OIG’s recommendations were that the
      Department:

      •        withhold or at least restrict future funding until MiraMed has implemented
               adequate systems and controls to account for federal funds; and

      •        make a determination regarding the questioned costs and, if necessary,
               require reimbursement for any costs disallowed.




16   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
Review of [a Department Contractor’s]
Termination for Convenience Proposal for
Contract S-FBOAD-99-D0016, Task Order 57,
Havana, Cuba (AUD/CG-05-22)

At the request of the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (A/LM/AQM), OIG reviewed this proposal
to:

    • determine whether the contractor’s termination for convenience proposal
         was prepared in accordance with applicable federal regulations; and
    •    assess whether claimed costs were incurred, reasonable, allowable, and
         allocable.

OIG questioned the entire amount claimed, $4,402,930, because the contactor did
not certify the cost or pricing data or submit the termination proposal on a total
cost basis.




Survey of Department of State’s Funding for Iraq
(AUD/CG-05-18)

OIG conducted a survey to:

    • identify and quantify funding received by the Department that was
         earmarked for Iraq;
    •    ascertain methods or instruments used to convey such funds to others (e.g.,
         contractors, grantees); and
    •    compile an inventory of actions obligating funds.

According to the Bureau of Resource Management, Office of Foreign Assistance
and Budget, as of the end of June 2004, the Department’s portion of Iraq Relief
and Reconstruction Funds (IRRF) was about $1.2 billion. Of this amount, seven
bureaus within the Department had obligated about $768 million as of June 2004.
The Department also received non-IRRF funds under other authorities or programs
that could be used to support Iraqi-related activities.



Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   17
      Survey results showed that 17 of 31 bureaus obligated about $1 billion for Iraqi-
      related activities. Procurement instruments, such as contracts and purchase orders,
      accounted for about 65 percent of the transactions (or about $674 million). OIG
      consolidated the survey data provided by the responding bureaus and offices into a
      database, which will facilitate future audit efforts.




      Agreed-Upon Procedures Review of Daily Direct
      Labor, Aerial Support Equipment, and Indirect
      Expense Rates Proposed by [a Department
      Contractor] (AUD/CG-05-13)

      At the request of A/LM/AQM, OIG conducted an agreed-upon procedures review
      to determine whether the timekeeping and accounting systems of a contractor were
      adequate for tracking and accumulating costs under government contracts and to
      support billings. OIG determined that the contractor’s timekeeping and accounting
      systems were inadequate.




      Application of Agreed-Upon Procedures on
      Costs Claimed by [a Department Contractor]
      Under U.S. Department of State Delivery Order
      #SLMAQM03F5106 (AUD/CG-05-08)

      At the request of the Bureau of Educational and Cultural Affairs, OIG conducted
      agreed-upon procedures of costs claimed by a contractor to determine whether
      costs incurred and claimed were reasonable and allowable and complied with
      applicable agreements and regulations. Because of noncompliance with applicable
      agreements and regulations, OIG questioned $143,318 of the cost claimed by the
      contractor.




18   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
Review of Direct Labor and Indirect Expense
Rates Proposed by [a Department Contractor]
and Its Subcontractors (AUD/CG-05-04)

At the request of A/LM/AQM, OIG conducted agreed-upon procedures of rates
proposed by a contractor to determine whether they were reasonable and allowable.
OIG questioned several of the rates proposed by the contractor.


Financial Management Division


Management Letter Related to the Audit of the
U.S. Department of State’s 2004 and 2003
Principal Financial Statements (AUD/FM-05-21)

Under generally accepted auditing standards, auditors performing financial
statement audits are encouraged to report, in a separate management letter, internal
control weaknesses that do not rise to the level necessary to be reported in the
financial statement opinion. During the audit of the Department’s 2004 and 2003
principal financial statements, an independent external auditor identified internal
control weaknesses relating to:

    ·    the Prompt Payment Act;
    ·    payroll documentation;
    ·    Federal Employees’ Compensation Act deposits;
    ·    deferred maintenance;
    ·    accounts receivable and payable;
    ·    fund balance with Treasury;
    ·    property and operating leases;
    ·    controls over credit card purchases;
    ·    Management’s Discussion and Analysis; and
    ·    Foreign Service Retirement and Disability Fund payments and actuarial
         liability.

The external uditor recommended that the Department take appropriate action to
address these weaknesses.


Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   19
      Independent Auditor’s Report on Special-
      Purpose Financial Statements (AUD/FM-05-11)

      All agencies must provide the Department of the Treasury with fiscal data that are
      used to prepare the Financial Report of the United States. Agencies must reclassify the
      amounts in their audited Department-level financial statements to a generic
      financial statement format and submit the reclassified statements as part of a year-
      end closing package. The Inspector General of each agency must give an opinion
      on the consistency of the closing package data with the audited Department-level
      financial statements.

      An independent external auditor, at OIG’s direction, audited the Department’s
      reclassified balance sheet as of September 30, 2004, and the related reclassified
      statements of net cost and changes in net position for the year then ended. The
      external auditor issued an unqualified opinion on the reclassified statements.



      Agreed-Upon Procedures Report on Federal
      Intragovernmental Activity and Balances
      (AUD/FM-05-10)

      Treasury annually prepares and submits to the President and the Congress an
      audited financial statement covering all executive agencies. Each agency is
      required to provide certain financial and operational information with Treasury,
      including that on intragovernmental activity and balances.

      Under OIG’s direction, Leonard G. Birnbaum, Inc. (LGB), an independent certified
      public accounting firm, performed required procedures solely to assist Treasury in
      the preparation of the consolidated financial statements of the U.S. government as
      of and for the year ended September 30, 2004. The auditor:

           • reviewed the Department’s trading partner data for intragovernmental
                activity and balances;
           •    traced the data to the Department’s general ledger and supporting
                schedules; and
           •    traced any differences between the Department and its trading partners to
                explanations from the Department’s supporting documentation.

      The auditor did not note any discrepancies.


20   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
Audit of the U.S. Department of State 2004 and
2003 Principal Financial Statements
(AUD/FM-05-09)

The Chief Financial Officers Act, as amended, requires an audit of the
Department’s principal financial statement. The objectives of the audit are to
report on whether:

    • the financial statements fairly present the Department’s financial position
         and results of financial operations in accordance with generally accepted
         accounting principles;
    •    the Department had an internal control structure that provided reasonable
         assurance of achieving internal control objectives; and
    •    the Department complied with applicable laws and regulations.

Although an independent external auditor issued an unqualified opinion on the
Department’s 2004 and 2003 principal financial statements, the report brings to
management’s attention certain concerns, among them the inadequacy of the
Department’s financial and accounting system, which is both an internal control
weakness and an issue of noncompliance with several laws and regulations.




Vulnerability Assessment of the Foreign Affairs
Retirement and Disability System
(AUD/FM-05-07)

To assist LGB in auditing the Department’s principal financial statements, EWA
Information and Infrastructure Technologies, Inc. (IIT) performed a vulnerability
assessment of the internal controls of the Foreign Affairs Retirement and Disability
System (FARADS) financial management system. This work also helped LGB
determine whether the Department complied with OMB Circular No. A-130, which
requires all federal agencies to establish automated information system security
programs and describes the minimum requirements for those programs.

FARADS is a mainframe-based application. IIT found that the security posture of
the network domain that hosts the Department’s mainframe systems was very good.



Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   21
      Overall, IIT found that the application-specific security features associated with
      FARADS appeared to function correctly and were well managed.



      Assessment of the Certification and
      Accreditation, Change Management, and Patch
      Management Processes (AUD/FM-05-06)

      To assist LGB, IIT assessed the Department’s above-named processes. IIT found
      that the Department’s certification and accreditation process complied with
      government requirements. When fully implemented, it should improve the
      Department’s IT security posture.

      IIT assigned credit for the Department’s rapid progress to the establishment of the
      Bureau of Information Resource Management, Office of Information Assurance
      (IRM/OIA) and the centralization of system security responsibilities under its
      auspices. IRM/OIA moved the efforts forward rapidly without compromising
      essential standards. Although the effort had not fully matured at the time of this
      assessment, the available evidence supports IIT’s conclusion that these processes
      should proceed successfully.


      Property, Procurement and Administrative
      Support Division


      Review of the Bureau of African Affairs
      Unauthorized Commitments (AUD/PPA-05-17)

      The Bureau of Administration, Office of the Procurement Executive asked OIG to
      review the Bureau of African Affairs, Executive Office’s (AF/EX) compliance
      with federal and Department regulations on the ratification of unauthorized
      commitments. A contract employee in the Information Resource Management
      Division (AF/EX/IRM) had improperly purchased IT equipment for African posts,
      which resulted in unauthorized commitments that may date from FYs 1989 to
      2002.




22   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
The unauthorized commitments occurred, according to AF/EX officials, because
the systems manager position in AF/EX/IRM was often vacant, and the contractor
assumed procurement duties, leaving AF/EX vulnerable to violating procurement
regulations. Since April 2002, AF/EX had not identified the extent of
unauthorized commitments for improper IT equipment purchases. During 2000-02
alone, a bureau contractor made unauthorized commitments for 46 AF posts,
totaling about $3.5 million.

OIG concluded that although AF/EX has taken steps to improve its internal
controls over procurements, it has not complied with regulations to ratify
unauthorized commitments. OIG recommended that AF/EX identify all
unauthorized commitments from FYs 1989 to 2002 and seek ratification in
accordance with regulations.




Review of Agreed-Upon Procedures for the
Verification of Excessive Fuel Charges in
Support of the Jordan International Police
Training Center (AUD/IQO-05-16)

This report reviews and verifies a diesel fuel reimbursement from DynCorp
International LLC (DynCorp) to the Department for contract support to the Jordan
International Police Training Center (JIPTC). A subcontractor overbilled the
Department for about 2.7 million liters of diesel fuel, valued at $600,824. In
addition, INL asked OIG to evaluate the contractor’s internal controls over the
delivery and receipt of diesel fuel.

OIG’s review found that on the basis of available data, the amount of DynCorp’s
reimbursement to INL was reasonable. OIG found, however, that fuel tanks were
not adequately secured to prevent theft. Even though maintenance personnel
reported missing or damaged locks, DynCorp personnel at JIPTC took no action to
provide better security as required. At the end of the review, the facilities manager
told OIG that, at a minimum, he would requisition locks from inventory and have
them placed on the tanks.

OIG recommended that INL, in cooperation with the contracting officer, require
DynCorp to strengthen written policies and procedures concerning internal controls
over the delivery and receipt of diesel fuel and direct DynCorp to take steps to
secure all fuel tanks at the JIPTC.


Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   23
      Review of Procurement and Property Operations
      at Embassy Bamako (AUD/PPA-05-03)

      At the request of post management, OIG reviewed the integrity of the
      management of procurement and property activities at Embassy Bamako. OIG
      found many weaknesses. Among them were that:

           • about one-third of the post’s procurement files lacked required
                documentation;
           •    the post used a blanket purchase agreement to inappropriately obtain
                casual labor;
           •    recordkeeping was inadequate for monitoring the local guard contractor;
           •    contractor services were inappropriately obtained with petty cash
                payments;
           •    personal property irregularities included inventory shortages, a recent theft,
                and questionable annual reconciliation practices.

      These weaknesses were indicative of a control environment vulnerable to waste,
      fraud, abuse, and mismanagement. OIG recommended that the post comply with
      federal and Department procurement and property regulations, including inventory
      reconciliations, and contract provisions.



      Review of Lighting Standards for Compound
      Physical Security Upgrades Projects
      (AUD/PPA-05-02)

      This review evaluated the adequacy of the standards for perimeter compound
      security lighting and looked at how the Bureau of Overseas Buildings Operations
      (OBO) and DS could clarify and more effectively communicate perimeter lighting
      standards to post personnel. Owing to funding limitations, OBO was only able to
      upgrade the lighting at a limited number of posts.

      OIG found that the Department had procedures for addressing perimeter security
      lighting issues, but the guidance was written for lighting specialists, architects, and
      engineers. OIG recommended that OBO create a condensed version of guidelines




24   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
and have DS transmit them to the regional security officers (RSO), who should
work with their regional security engineering officer to have a lighting survey
performed. With the results of these surveys, DS and OBO will be in a better
position to evaluate the lighting at posts and find the funds to meet perimeter
lighting standards.



                            OIG’s Coordination With SSA
    In 1996 and 2000, the Social Security Administration (SSA) entered into agree-
    ments with the Department of State and the Immigration and Naturalization Service,1
    respectively, to assist SSA in assigning social security numbers (SSN) to certain
    classes of immigrants.2 SSA’s goal in implementing an “enumeration-at-entry”
    process was to reduce the possible acceptance of counterfeit immigration docu-
    ments by SSA personnel and eliminate duplicate contacts immigrants must make
    with federal agencies.
    In October 2002, the Department and DHS began collecting data needed for SSN
    assignment as part of the immigration process. As of September 30, 2004, SSA
    had issued more than 101,000 social security cards to participants in the enumera-
    tion-at-entry process.

    The review identified weaknesses in existing controls and operations and made
    recommendations for SSA to improve the efficiency and effectiveness of the pro-
    cess. For example, the review projected that SSA could not process about one-
    quarter of applications during FY 2004 because of data incompatibility issues
    among SSA, the Department, and DHS.3 Further, enumeration at entry records did
    not always include the immigrants’ complete name or prior SSN. In some cases,
    SSA assigned multiple SSNs to an immigrant. Although the report concluded that
    the enumeration at entry process shows significant promise, SSA must resolve
    these weaknesses before it expands enumeration at entry to other classes of
    noncitizens or visa categories.

    CA agreed that SSA/OIG’s report identified important opportunities for improving
    data-sharing arrangements and said it would work closely with SSA and DHS to
    further refine the process that has been in place since October 2002. The Depart-
    ment agreed that strengthening the program before introducing additional data
    sharing for other visa categories was important.




1
  On March 1, 2003, the U.S. Citizenship and Immigration Services, a DHS bureau, became responsible for
  providing immigration related services and benefits.
2
  The term “immigrant” here refers to those individuals DHS admitted as permanent residents.
3
  The electronic data the Department and DHS transmit to SSA do not always meet SSA’s data requirements.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005           25
      Review of the Department of State’s Overseas
      Purchase Card Program (AUD/PPA-05-01)

      OIG’s review found that the Department could improve purchase card program
      effectiveness and internal controls. Only 60 percent of the annual reviews (11 of
      18 overseas posts that OIG examined) were completed. The majority of officials
      OIG interviewed were not fully aware of their annual review responsibilities, and
      key purchase card participants, including approving officials and financial
      management officers, had not received required training.

               •        The Department used the purchase card for only 30 percent of its
                        overseas small purchases (55,079 of 183,112) in FY 2003. If the
                        Department had used the card on all overseas small purchases, it
                        could have earned an estimated $910,000 in additional volume
                        rebates from its purchase card provider.

               •        The Department’s untimely purchase card payments negatively
                        affected the amount of rebates received in FY 2003. Had all
                        invoices been paid within 30 days, the Department could have
                        earned an estimated $20,000 in additional productivity rebates from
                        its purchase card provider.

      OIG concluded that the Department should strengthen procedures on conducting
      annual reviews, improve daily administrative oversight, enhance training, and take
      steps to maximize rebates by expanding the policy on using the cards for higher
      dollar procurements and issuing guidance on the importance of timely payment
      performance.


      Program Reviews Division


      Controls Over the Department of State’s
      Language Incentive Pay Allowance Payments
      (AUD/PR-05-20)

      OIG conducted an audit of the Department’s internal controls over its language
      incentive payment allowance for 2003. To foster the development and use of


26   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
foreign language skills deemed crucial to its mission, the Department provides
monetary allowances to Foreign Service officers (FSO) for proficiency in 45 hard
and five extremely hard languages. In the event that an FSO mistakenly receives an
overpayment in the allowance, Department officials can waive the collection of the
overpayment.

OIG found that the Department had adequate internal controls for language
incentive payment, but needs to address one issue. In October 2003, the
Department reassigned the individuals responsible for adjudicating and waiving
overpayments but did not update the FAH to reflect the changes. OIG
recommended that the Department revise the FAH.


              BEST PRACTICE: Improving Financial Review of
                         Contractor Invoices
        Review of Allegations Concerning DynCorp International’s
        Worldwide Personal Protective Services Contract in Afghanistan
        (AUD/PPA-04-45)

        Issue: The review identified poor financial oversight of the contrac-
        tor by the Department, which allowed duplicate or erroneous
        billings of about $950,000 to be charged to the contract.

        Response: OIG recommended that DS, as the cognizant program
        office, improve financial oversight of the contract by hiring financial
        specialists to review contractor invoices.

        Result: DS complied with the recommendation, and between
        October 2004 and March 2005, financial specialists identified
        overcharges and ineligible costs from contractor invoices and
        recovered approximately $271,000.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   27
28   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
                              INSPECTIONS



CONSULAR AFFAIRS


Report of Management Review of Visa and
Passport Fraud Prevention Programs
(ISP-CA-05-52)

In response to increased emphasis on border control in support of a new U.S.
national security mandate, OIG reviewed CA’s and DS’s management of consular
fraud prevention programs. OIG gave credit to both bureaus for starting an
integrated fraud prevention program in 1996, long before the events of
September 11, 2001, and expanding that program as border security took on new
importance. OIG found that where dedicated investigative positions are in place
overseas and fraud prevention manager positions are in place domestically, with
fully trained staff, they have shown clear, positive results in detecting and deterring
visa and passport fraud. CA has created an excellent fraud prevention web site and
e-room for exchanging intelligence and ideas concerning fraud prevention. OIG
believes that CA and DS need to take additional steps to improve and expand
antifraud efforts around the world.

Not all levels of the Department realize that effective visa and passport fraud
prevention is an essential component of U.S. border security. OIG’s review
revealed that a lack of resources, inadequate communications, and insufficient
training impedes fraud prevention efforts. The lack of a fraud-related career
specialty in both the Civil and Foreign Service and professional recognition
adversely affects staffing fraud prevention positions.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   29
      Review of Watch List Vulnerabilities
      (ISP-CA-05-55)

      Based on an analysis of denied applications for U.S. passports at Embassies
      Kuwait, Abu Dhabi, Sanaa, and Riyadh, OIG determined that significant data were
      not entered into the Consular Lookout and Support System (CLASS) between at
      least 1994 and 2003. Although the Department now appears to be properly
      entering the names of those denied U.S. passports overseas, vulnerabilities still
      exist. OIG recommended that the Department develop and implement a plan to
      identify all persons denied U.S. passports overseas since 1995 whose names do not
      appear in CLASS and enter them and determine whether any persons have received
      passports in error and take action to revoke them.



      Nonimmigrant Visa Adjudication Process
      (ISP-CA-05-56)

      In response to a request from Congress, OIG reviewed policies and procedures for
      issuing visas to determine whether unqualified applicants are receiving visas owing
      to the exertion of inappropriate pressures. In particular, OIG focused on the visa
      referral system, which is designed to facilitate adjudications of visa applications
      while advancing U.S. interests. The referral system must be carefully managed and
      monitored to prevent abuse. OIG found that recent changes to the referral system
      have made it more codified, transparent, and accountable, with ambassadors and
      deputy chiefs of mission clearly responsible for their mission’s referral system and
      its integrity. OIG believes, however, that consular officers need training and
      support in dealing with referrals from those more senior in rank and that CA should
      designate a person in the Department to whom adjudicating officers may address
      their concerns.



      NIV Adjudications: Standards for Refusing
      Applicants (ISP-CA-05-58)

      OIG responded to a congressional request to review the standards for refusing
      nonimmigrant visa (NIV) applicants to determine how consular officers were
      applying section 214(b) of the Immigration and Nationality Act. Further, OIG


30   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
examined the merits of several elements of the visa-adjudication process to
determine whether they effectively protect the security of the United States.

OIG believes that the main consular challenges facing the Department are to
ensure that interviewing officers have a clear understanding of and compliance
with the law and that these officers have the necessary tools to conduct an
effective visa interview. With those challenges in mind, OIG recommended that:


•       CA consolidate its guidance on applying section 214(b) as a basis for
        refusal;
•       CA issue more guidance on denying visas under Section 214(b) when an
        applicant does not meet the statutory requirements in section 101(a)(15);
        and
•       the Foreign Service Institute’s Consular Training Unit develop materials to
        make recently issued guidance on the application of section 214(b) a key
        part of its training.


DOMESTIC BUREAUS


Review of Treaty Management Responsibilities
in the Office of Treaty Affairs (ISP-C-05-01)

In response to a congressional request, OIG reviewed the treaty management
responsibilities of the Office of the Legal Adviser (L) and the specific
circumstances behind L’s failure to report a number of international agreements to
Congress as required by law.

OIG concluded that insufficient staffing and space contributed to the breakdown in
L’s ability to carry out the mandate to report certain international agreements to
Congress. L’s culture emphasized legal work and understated the importance of
program duties, such as maintaining archives, publishing completed treaties, and
reporting international agreements to Congress.

OIG recommended that L
       • create and fill an administrative position with responsibility for
         managing the Department’s treaty archives and make an attorney a
         de facto deputy, responsible for management and operations; and


Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   31
                • improve management controls and replace paper records with an
                    electronic database of treaty and agreement actions.




      Inspection of the Bureau of Political-Military
      Affairs (ISP-I-05-03)

      OIG found the Bureau of Political-Military Affairs (PM) has received wide,
      deserved praise in the interagency community for its work as the Department’s
      primary coordinator with the Department of Defense and for administering U.S.
      defense trade. In recent years, the bureau has directed billions of dollars annually
      in security assistance to allies, promptly provided arms export licenses for material
      needed by U.S. coalition partners, launched an initiative to acquire and destroy
      man-portable air defense systems, undertaken with Defense a global defense
      posture review, and instituted a new strategic mine action plan.

      PM has been in the forefront of the global war on terrorism, but this mission has
      placed a heavy workload on the bureau and strained the staff. OIG recommended
      that PM seek additional staff and that the Department’s task force on the
      reorganization of the Arms Control and International Security (T) bureaus consider
      moving or combining some PM bureau functions.



              A Success Story: The Political-Military Action Team


           The Political-Military Action Team (PMAT) grew out of the PM cell in the task
           force the Department established on September 11, 2001. When the Depart-
           ment dissolved the task force in October 2001, PMAT continued to work
           around the clock, seven days a week, to support Operation Enduring Free-
           dom. Since then, the PMAT’s work has become an essential link to Defense
           and its commands, especially after normal working hours, on urgent, opera-
           tional matters. It also prepares overnight reports on developments in Iraq,
           Afghanistan, and other crisis spots for the Deputy Secretary and other
           senior officials. OIG found that PMAT is a valuable source of information on
           pressing military matters and a useful locus of coordination with Defense.
           OIG recommended that PM establish a committee to examine the further
           institutionalization of the PMAT.




32   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
      U.S. Section of the International Boundary and Water
                   Commission (ISP-I-05-26)

    This report addressed a wide variety of administrative, security, and safety
    concerns at the USIBWC. Management actions at the USIBWC have under-
    mined the morale of the agency, led to departure of key personnel, and
    raised fundamental questions about a lack of U.S. government oversight.
    Internal management problems have engulfed USIBWC, threatening its
    essential responsibilities for flood control and water management in the
    American Southwest.

    The Department bears clear foreign policy oversight of USIBWC. The
    management situation prompted OIG to recommend that the USIBWC’s
    personnel structure and policies be aligned more closely with those of the
    Department.




Inspection of the Bureau of Diplomatic Security,
Directorate of Security Infrastructure
(ISP-I-05-45)

OIG’s inspection of DS’s Directorate of Security Infrastructure found that
combining three divisions under one directorate has improved overall effectiveness.
The directorate is customer-focused and delivers excellent service. OIG noted that
the widespread use of contractors was necessary and in keeping with the
President’s Management Agenda goal of outsourcing. However, OIG noted that
the practice requires cost-conscious acquisition planning and close contract
management.

DS had reduced the average processing time of a security clearance, made progress
in addressing investigative deficiencies, and improved the Department’s
management of classified information. However, OIG made recommendations to
correct a vulnerability in investigative files, establish procedures to verify that all
background files are complete and meet federal standards, and ensure that each
Department bureau comply with the Top Secret control program.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   33
       Inspections of the Bureau of Arms Control
       (ISP-I-05-49); Bureau of Nonproliferation
       (ISP-I-05-50); and Bureau of Verification and
       Compliance (ISP-I-05-51)

       OIG inspected three of the bureaus reporting to the Under Secretary for Arms
       Control and International Security to determine the performance of the individual
       bureaus and to gauge the effectiveness of their interaction and, by extension, the
       effectiveness of the merger of the Arms Control and Disarmament Agency
       (ACDA) into the Department. OIG found that the integration produced a
       bureaucratic architecture that did not meet current needs. Unclear lines of
       authority, uneven workload, and unproductive competition impeded performance
       of the three resultant bureaus: Arms Control, Nonproliferation, and Verification
       and Compliance.



                    Summary Report on Public Diplomacy at the
                        Department of State (ISP-I-05-54)

           OIG assessed the conduct of public diplomacy since the consolidation of that
           function into the Department in 1999 and determined that the consolidation has
           been more effective at embassies than within Department headquarters. The Office
           of the Under Secretary for Public Diplomacy and Public Affairs is structurally
           underpowered to coordinate both strategic and tactical public diplomacy within the
           Department. Furthermore, OIG believes the structure of the Bureau of International
           Information Programs diminishes the effectiveness of tactical public diplomacy,
           which provides direct, foreign policy support. The Bureau of Educational and
           Cultural Affairs is the more viable organization for conducting international programs
           to promote mutual understanding.

           OIG recommended that the Department: ask Congress to review the Smith-Mundt
           Act’s continued relevance; revise the Foreign Affairs Manual to designate authority
           to the Under Secretary for Public Diplomacy and Public Affairs for coordinating
           policy; and seek greater representation at the National Security Council to ensure
           better and continuing coordination of interagency public diplomacy activities.




34   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
OVERSEAS MISSIONS


Embassy Amman, Hashemite Kingdom of Jordan
(ISP-I-05-02A)

Support for Embassy Baghdad operations has
taxed the mission heavily in the past year,
including congressional delegation visits
primarily associated with Iraq issues, off-site
administrative support for Embassy Baghdad
and training Embassy Baghdad personnel, and
establishment of the Iraq Support Unit in                          Embassy Amman
Amman. Embassy Amman is experiencing rapid growth.

OIG recommended that the embassy:

    • complete needed chancery measurement, space allocation, and realignment
        activities before making decisions on staffing increases;
    •   develop and implement a safety, health, and environmental management
        program to protect embassy employees and their families; and
    •   evaluate whether to combine duplicative motor pool, warehouse, and other
        operations of the Department and USAID.




Embassy Cairo, Egypt, and the American
Presence Post in Alexandria, Egypt
(ISP-I-05-04A)

Embassy Cairo excels at policy advocacy, reporting, and support for a steady stream
of high-level visitors. A key priority is reaching out to the Egyptian public, given
that a recent study found that only six percent of Egyptians view the United States
favorably. To address this, embassy officers other than the ambassador need to
engage in public diplomacy activities, and there must be increased public access to
Radio Sawa.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   35
      The recent redesignation of the former American Cultural Center in Alexandria as
      an American presence post will allow the mission to increase its reporting on
      developments in the Nile Delta. To ensure a smooth transition, the embassy will
      need to reprogram several positions and to spell out clearly the embassy’s and the
      American presence post’s responsibilities.



      Embassy Paris, France, and Constituent Posts
      (ISP-I-05-06A)

      OIG found that Embassy Paris had charted an effective course in strengthening the
      trans-Atlantic, bilateral relationship with the U.S. across a vast spectrum of priority
      activities despite the tensions between the two countries over Iraq. Establishing
      American presence posts in five provincial cities had effectively expanded public
      diplomacy, trade promotion, and American citizens services throughout the country
      at relatively low cost to the U.S. government.

      Property issues dominated Embassy Paris operations and were in flux. The
      embassy was focusing its efforts on the security of embassy facilities. It sold some
      assets and planned to refit others. Despite significant attention by post
      management, many problems still needed to be addressed. Severely reduced and
      poorly configured consular space affected the embassy’s ability to provide
      requested consular services and to maintain standards of oversight and training for
      the consular staff. This situation will continue until the section is moved to more
      secure and appropriately designed space, not anticipated before 2006.

                           Cost-Savings Related to ICASS

           In its inspection of Embassy Paris, OIG recommended that the embassy, in
           coordination with USOECD and USUNESCO, develop a joint management
           structure to provide administrative services, through ICASS, for those mis-
           sions. At USOECD, OIG found that management operations duplicated the
           ICASS functions Embassy Paris provides. USOECD subscribed to a full
           range of ICASS services, paying about $3.9 million annually. USOECD had
           seven locally employed staff who provided liaison with Embassy Paris’ ICASS
           functions and duplicated many ICASS functions. Additionally, a Foreign
           Service officer provided oversight by attending meetings and delegating
           administrative responsibilities to the local staff. OIG believed that
           USUNESCO would also benefit from becoming a full participant in a joint
           administrative service organization and receiving all administrative services
           through ICASS.



36   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
Financial Support and Training Office, Paris,
France, Memorandum Report (ISP-I-05-07)

In 2003, the Bureau of Resource Management (RM) successfully closed the Paris
Financial Service Center and established the Financial Support and Training Office
(FSTO). A reduction-in-force, with financial incentives costing over $3.85 million,
reduced the staff from 124 local employees to 14 employees. After temporarily
transferring financial responsibility for 98 missions and 220 cashiers to the
Charleston Financial Service Center, RM returned responsibility for 45 missions
and 60 cashiers to FSTO because the Paris staff ’s skills were crucial to resolving
financial management problems. OIG believes that the office fills a vital need for
services and that its Paris location is appropriate and effective.



U.S .Mission to the United Nations Educational,
Scientific, and Cultural Organization (ISP-I-05-08)


USUNESCO has existed only a matter of months and has only recently been
adequately staffed and housed. OIG found the mission has made a sound beginning
in advancing and protecting U.S. interest. Mission personnel properly focused on
the most problematic educational, scientific, and cultural initiatives and programs
and on prompting programs and budget discipline. They forged the relationships
with secretariate staff and other delegations necessary for efffective advocacy and
negociation. However, OIG noted that the public diplomacy was ill-defined.



U.S. Mission to the Organization for Economic
Cooperation and Development (ISP-I-05-09)

OIG’s inspection of USOECD found it played a key role in advancing U.S.
government international economic, financial, and social policy objectives. OIG
found that no Washington process fully coordinated the interests of the 23 U.S.
government agencies, U.S. business, and other nongovernmental groups with
interests in the organization, and this complicated strategic planning for the
Department and mission leadership.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   37
      U.S. dues in arrears to the organization exceeded $100 million. U.S. failure to meet
      its financial commitments caused operational problems for the organization,
      generated resentment from member states that pay on time, damaged U.S.
      credibility, and complicated the mission’s ability to advance U.S. interests.

      Embassy Bucharest dealt admirably with a vastly expanded bilateral relationship
      and a heavy flow of high-level American visitors, as Romania moves toward
      membership in the European Union and on the United Nations Security Council,
      and participation in peacekeeping operations in Afghanistan and Iraq.

      Construction of a new embassy compound for Embassy Bucharest is scheduled to
      start in FY 2009 to replace the present eight cramped and outmoded facilities. The
      embassy and the Department are in the process of securing new temporary quarters
      for the public affairs section and should continue to seek an early move.

      The embassy information office in Cluj was engaged in a broad range of activities
      that promoted U.S. interests in Romania’s important region of Transylvania.
      However, the office was underused and did not receive effective supervision from
      Embassy Bucharest. OIG made recommendations to broaden the scope of the
      office’s activities and strengthen its relationship with the embassy.




      Inspection of Embassy Sofia, Bulgaria
      (ISP-I-05-11A)

      OIG’s inspection of Embassy Sofia found
      that the use of the Mission Performance Plan
      to coordinate progress on goals and objectives
      was intense and effective. The Ambassador
      had aligned (USAID) priorities tightly with
      those of the Mission Performance Plan. The
      Ambassador had inserted post management
      into the USAID budget process and directed                 Embassy Sofia
      some of that budget toward innovative programs in such areas as trade
      development and Peace Corps self-help projects.

      At the time of the inspection, the embassy was within weeks of moving into a new
      embassy compound, an impressive facility that is secure, functional, and attractive.
      Coordination between OBO and Embassy Sofia had been exemplary.



38   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
Inspection of Embassy Chisinau, Moldova
(ISP-I-05-12A)

Embassy Chisinau was well managed, an impressive achievement given its
limitations. Buildings were outmoded. Remodeling had alleviated some hazards,
and completion of a Marine post one and a controlled access area will also help.
However, long-term resolution will only come with the construction of a new
embassy compound.

A two-year tour of duty policy and the frequent assignment of officers to important
reporting and administrative positions for which they have no prior experience
posed major mentoring and management issues almost every fall. During the
inspection, Embassy Chisinau was particularly focused on bringing its political/
economic section up to the necessary level of performance.

Public affairs was a success story. Getting most American officers involved in the
public speaking effort and a careful system for tracking and staying close to
Moldovan alumni of embassy programs were particular achievements.



Review of Off-Site Support to Embassy Baghdad
and Constituent Units (ISP-IQO-05-53)

                                        Embassy Baghdad is one of the largest and
                                        most complex U.S. missions in the world,
                                        with several thousand employees and
                                        contractors and an FY 2005 operating
                                        budget of approximately $766 million.
                                        Reliance on military contractors to provide
       Partially destroyed Embassy       life-support adds to the uniqueness of the
      Baghdad Communications Ctr.        mission. The threat to Iraqi nationals
associated with U.S. government operations in Iraq stymies efforts to establish a
cadre of experienced Foreign Service nationals. As a result, the mission is – and
will remain – dependent on off-site administrative assistance and support. The
Department has established Iraq logistics and travel support units in Amman,
Jordan; Kuwait City, Kuwait; and Washington, DC. Interaction between Embassy
Baghdad and these off site support units should be better coordinated. OIG
recommends the development of standard operating procedures and memoranda of
understanding.

Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   39
      Although there has been some discussion of moving parts of the Iraq Support Unit
      in Amman to such locations as Frankfurt, Germany, OIG recommends that the
      Amman offices remain intact and collocated within the Amman chancery
      compound. Any move to other locations would have to take into account
      Baghdad’s need for exclusively dedicated services, 24-hour support, and Arabic-
      speaking employees.

      In sum, OIG found that decisions on where to provide support were not well
      coordinated and that the Department had not yet fully developed a coherent
      regional support model appropriate for Embassy Baghdad.



      Review of the Staffing of Embassy Baghdad
      (ISP-IQO-05-57)

      In keeping with its oversight responsibilities, OIG reviewed the staffing of
      Embassy Baghdad and determined that the transition of duties from the Coalition
      Provisional Authority to Embassy Baghdad had been rational, orderly, and well
      planned. To recruit staff for Embassy Baghdad, the Department uses personal
      targeting and the Iraq Service Recognition Package, which is a mix of significant
      financial and career incentives. This strategy was sufficient to staff the embassy
      for the 2005-06 assignment cycle. However, OIG shares the widely held concern
      that future recruits to the embassy will become increasingly scarce as the talent
      pool of qualified and highly motivated Foreign Service officers shrinks with each
      cycle. An increasing number of eligible Foreign Service officers are likely to be
      influenced more by financial rewards and family considerations than by less
      tangible considerations.

      To overcome this problem at Embassy Baghdad and prepare for future emergency
      staffing situations elsewhere, the Department will either have to expand its current
      benefits package for Baghdad and other dangerous and hard-to-staff posts or
      undertake drastic measures, including directed assignments. The issue of directed
      assignments is a complicated one that deserves further study before
      implementation. There are a number of less dramatic possibilities that the
      Department is considering for enhancing its ability to recruit for combat-zone
      posts. These include implementing greater use of flexible tours of duty, a more
      rational approach to the separate maintenance allowance, temporary relief from
      time-in-class and time-in-service limits, higher grade pay for stretch assignments,
      removal of restrictions on the use of when-actually-employed and contract
      employees, exemption from taxation, linked assignments, and additional availability
      of family-friendly arrangements.

40   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
                                   BEST PRACTICES

        Embassy Chisinau

        Best Practice: Public Outreach by Embassy Officers

        Issue: Although Moldova provides ample public speaking opportu-
        nities for embassy officers on Mission Performance Plan themes,
        the public affairs officer at Embassy Chisinau has had difficulty
        recruiting volunteers for public speaking events.

        Response: Following discussions with the country team on how
        best to involve embassy officers in outreach efforts, the Ambassa-
        dor initiated the inclusion of one public speaking event a year into
        the work requirements of each Department officer.

        Result: The public affairs office now coordinates an active em-
        bassy public speaking program throughout Moldova involving all
        Department officers. Most officers have requested additional
        speaking opportunities beyond the one specified in their work
        requirements.


        Embassy Amman

        Best Practice: Electronic Shopping Basket for Expendable
        Supplies

        Issue: Individuals at many posts are unfamiliar with expendable
        supplies that are available locally. Orders for supplies may be
        incorrectly completed, requiring telephone calls or delays as
        requirements are clarified.

        Response: Embassy Amman has an electronic shopping basket
        for expendable supplies that allows customers to select exactly
        what they need, when they need it.

        Result: Embassy employees receive better service, dispensing of
        supplies is streamlined, and the embassy is better able to manage
        its stock of supplies.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   41
               Embassy Paris

               Best Practice: Structured Training Program for Entry-Level
               Information Management Specialist.

               Issue: Embassy Paris has a large number of first- or second-tour
               information management specialists. Upon completion of this tour,
               many of the information management specialists are assigned as
               the information programs officer or information systems officer at
               much smaller diplomatic missions where they must perform the
               full range of duties within an information programs center or
               information services center.

               Response: The Embassy Paris information programs center has
               set up a regularly scheduled training program in which duties are
               rotated every eight weeks.

               Result: Individuals receive training in every critical information
               program function and are therefore better prepared for their next
               overseas tour as information management specialists.




42   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
                     INFORMATION TECHNOLOGY




OIG evaluates IT information management and, information systems security, in
the Department through a program of evaluations, inspections, and reviews.
During this reporting period, OIG completed a memorandum report summarizing
the information systems security issues reported in FY 2004, issued two inspection
reports focused specifically on Regional Information Management Center (RIMC)
operations, and inspected embassies to determine the effectiveness of a
comprehensive information systems security program promulgated by the
Department.




Memorandum Report: Summary of FY 2004
Information Systems Security Issues (IT-I-05-01)

During FY 2004, OIG inspected more than 40 posts and bureaus, gaining valuable
insight into the Department’s ongoing information systems security efforts.
Modernizing the global IT systems, a move championed by then Secretary Colin L.
Powell and executed by the Chief Information Officer (CIO), was proving
successful. Installing advanced information systems, however, must be met with
an equivalent advancement in systems security.

OIG found that the Department must address several issues to ensure continued
advancement in systems security. Specifically, the CIO should:

•       ensure that information systems security officer’s (ISSO) duties and
        responsibilities are prioritized properly;

•       establish written guidance and procedures on what actions will be taken
        against overseas posts that do not install security patches deemed necessary
        by the Department;




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   43
      •        inform the posts and bureaus of the information systems documentation
               requirements and implement procedures for verifying and validating all
               requirements are met;

      •        and develop a policy and implementing guidance on the use of Universal
               Serial Bus storage drives on all Department systems.

      OIG found many opportunities for improving IT security and information
      management at all overseas missions and bureaus. For information systems
      security, OIG reviewed controls, including IT security and information
      management policies, procedures, and activities, and hardware and software
      configuration settings. Below are summaries of IT inspections during this reporting
      period.




      RIMC Inspections


      Regional Information Management Center
      Frankfurt (IT-I-05-02)

      RIMC Frankfurt provides high-quality support for the 117 posts within its region,
      which includes parts of four geographic bureaus. Although management is
      effective and makes the best use of limited resources, steps need to be taken to
      ensure that current levels of customer service do not decline. Specifically, RIMC
      Frankfurt needs to increase its staff of operations officers and radio technicians,
      establish a memorandum of agreement with the FSI, streamline the student
      registration process, and provide technicians with the appropriate tools, including
      administrator-level access to systems for which they are responsible.



      Regional Information Management Center
      Fort Lauderdale (IT-I-05-03)

      RIMC Ft. Lauderdale provides support to 49 posts within its geographic region.
      Management has been effective in raising the level of service to meet or exceed
      customer expectations, but steps need to be taken to maintain its current level of


44   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
service. To provide better support for digital technologies, RIMC Ft. Lauderdale
should realign its organizational structure to prevent overlaps in functional
responsibilities with the operations officer and Regional Information Technology
Support Office (RITSO) sections. RIMC Ft. Lauderdale should:

    • establish a memorandum of agreement with FSI for funding its training
        center;
    •   provide its technicians with systems administrator-level access for better
        diagnostic capability;
    •   and have the technicians increase their use of the Department’s information
        center and universal trouble ticket tracking system, to allow for better
        recording and analysis of systemic issues.

On the basis of RIMC Ft. Lauderdale’s workload data, the Department should
establish a satellite branch office with one or more resident technicians in Bogotá,
Colombia, to better meet the needs of that large and expanding mission. Finally,
the Department should purchase maintenance or customer support contracts for
Nortel switches, to ensure that technicians have access to the information they
need to assist customers in the field.


Combined Embassy Inspections


Embassy Amman, Hashemite Kingdom of Jordan
(ISP-I-05-02)

Embassy Amman operates a comprehensive information management program,
including computer networks, communications, mail, pouch, radio, telephone, and
digital videoconferencing services. OIG noted that although users are satisfied, the
information processing center facilities are inadequate and potentially unhealthy to
staff. Information management resources are being stretched through obligations
to provide support to other government agencies within the region, and the post
needs to improve its future resource requirements in line with Department policy
on providing services to other agencies. Deficiencies in systems security planning
and program implementation, including the ISSO’s role, are discussed in a classified
security report.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   45
      Embassy Cairo and American Presence Post in
      Alexandria, Egypt (ISP-I-05-04A)

      Embassy Cairo was the first embassy outside Europe to have received the
      International Organization for Standardization 9001 certification. The embassy
      was managing operations and supporting mission requirements. However, OIG
      identified key areas for improvement, including the post’s ISSO program, training,
      tracking of IT service calls, inventorying IT assets, equitable sharing of courier
      escort responsibilities, and organizing the telephone frame rooms to ensure proper
      and timely maintenance.



      Embassy Paris, France, and Constituent Posts
      (ISP-I-05-06A)

      Embassy Paris operates a comprehensive information management program that
      meets the needs of its approximately 800 authorized users in most areas and has
      developed a best practice in training new information management specialists.
      However, Embassy Paris has not implemented fully the Department’s information
      security program. Key areas that require immediate attention include the ISSO
      program, software security patch management, systems security documentation,
      and network protection. Further, OIG found that management should improve
      documentation for its emergency and evacuation radio tests, complete waiver
      requests justifying stand-alone Internet access workstations, and improve
      accessibility to the mission’s web site for individuals with disabilities.



      U.S. Mission to the United Nations Educational,
      Scientific and Cultural Organization – Paris
      (ISP-I-05-08) and U.S. Mission to the Organization
      for Economic Cooperation and Development -
      Paris (ISP-I-05-09)

      USUNESCO and USOECD shared the same information management system and
      staff in Paris. Two locally employed American staff members paid by USOECD
      and a third locally employed staff member, whose salary USUNESCO pays,
      administered the system.


46   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
OIG found that USOECD has not completed mandatory information systems
documentation requirements and therefore does not have:

• contingency plans to address continuity of operations;
• a systems security plan for protecting IT resources;
• an annual self-assessment of the security of its sensitive but unclassified and
    classified information systems; or

• an information system configuration management plan that provides assurance
    that system operation is in the correct configuration and that changes are
    reviewed for security.

USOECD does have a patch management installation procedure in place and an IT
Configuration Control Board.




Embassy Bucharest, Romania (ISP-I-05-10A)

Embassy Bucharest’s information management and information security programs
generally met the needs of its approximately 285 authorized users. However, OIG
found the post should improve its records management, its oversight of the use of
government equipment, timeliness and accuracy of IT inventories, and web site
management. Management should address information security issues, radio
checks, and physical security.



Embassy Sofia, Bulgaria (ISP-I-05-11A)

Embassy Sofia’s information management and information security programs are
well run with a dedicated staff that works to maintain a secure classified and
unclassified environment in support of approximately 190 authorized users.
However, OIG found that the embassy was not ensuring that its systems were
adequately purged of personal user files and e-mails and recommended action to
correct this situation. Corrective action should prevent overloading the system and
reduce susceptibility to virus attacks or the introduction of other hazardous files to
the post’s systems.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   47
      Embassy Chisinau, Moldova (ISP-I-05-12A)

      Embassy Chisinau’s information management and information security programs
      met the needs of its approximately 130 authorized users and showed high marks for
      management of information resources, adequacy of cellular telephone and radio
      programs, and responsiveness of unclassified information management support.
      However, OIG found that the post had no systems security and contingency plans,
      written patch management procedures, documented reviews of operational and
      management logs, and written procedures for handling incident responses. The
      post information management specialists were working to correct these deficiencies
      once OIG brought them to their attention.



      Bureau of Verification and Compliance (ISP-I-05-
      51), Bureau of Arms Control (ISP-I-05-49), and
      Bureau of Nonproliferation (ISP-I-05-50)

      The Bureau of Verification and Compliance’s, Office of Verification Operations
      (VC/VO) provides information management support for each of the four bureaus
      operating under the Office of the Under Secretary for Arms Control and
      International Security. IT support provided to the bureaus includes management of
      networks, procurement of IT hardware and software, maintenance of web sites,
      operation of the help desk, and administration of IT contracts. The IT staff was
      managing the migration of a local area network to the Department’s OpenNet Plus
      and VC/VO bureau’s move from Windows 2000 to Windows XP.

      Within each of the four bureaus, OIG identified deficiencies in the performance of
      ISSO duties. Such deficiencies place the Department at risk for intrusion into its
      networks. OIG identified excessive personal use of government equipment as well
      as inappropriate software, including games and music files on government
      workstations. Notwithstanding the identified weaknesses, OIG noted effective
      information management practices within the bureaus, including bureau-wide user
      briefings before allowing access to government systems and annual refresher
      briefings or training to continue use of the system.

      VC/VO received high marks for customer service and the extensive support that it provides to the
      bureaus. Although VC/VO is performing its mission effectively, many of its operations were
      not central to that of VC. Department offices should be placed in structures that


48   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
most reflect and match their basic mission and provide sufficient, close
management. OIG recommended that VC/VO be attached to the Office of the
Executive Director which is charged with providing support services to the VC and
bureaus of Arms Control, Nonproliferation and Political-Military Affairs, and
Verification and Compliance.



Bureau of Political-Military Affairs (ISP-I-05-03)

The Directorate of Defense Trade Controls for the Bureau of Political-Military
Affairs relies on the IT staff in VC/CO to provide systems management and
technology support, including day-to-day operations of the Defense Trade
Application System (DTAS) activities. This is the computerized system that allows
applicants to apply for arms export licenses electronically. OIG found that the
bureau needed to:

•       establish a formal process for developing business requirements for the
        export license application process; and

•       ensure, in coordination with VC, compliance with Department IT life-cycle
        standards by developing a project plan compliant with the Department’s
        Managing State Projects methodology.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   49
50   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
                               INVESTIGATIONS




FALSE CLAIMS
OIG opened an investigation into allegations that a Bureau of Diplomatic Security
agent submitted a false claim for Separate Maintenance Allowance (SMA)
payments. The investigation determined that the agent received $4,570 in SMA
payments despite being legally separated from his wife prior to applying for SMA.
On February 16, 2005, the Bureau of Human Resources notified the agent of a
proposed 5-day suspension of him for improperly receiving SMA benefits.

OIG opened an investigation into allegations that a former Department of State
employee was paid for 5 months of sick leave ($28,161), after she had left the
Department of State (Department), and had started work at another job. When
interviewed by OIG, the employee admitted to the allegations, but stated that she
sought approval from Department management and was never told she could not
take sick leave and work at another job at the same time. The former employee
also said she was willing to repay the money to the government. After the case was
declined for criminal prosecution, OIG referred the matter to the Bureau of
Resource Management (RM) for collection action.



EMPLOYEE MISCONDUCT
OIG opened a joint investigation with the Bureau of Diplomatic Security into
allegations that three regional security officers (RSOs) at a U.S. embassy made
unauthorized purchases of electronic equipment, clothing, and weapons and
ammunition that were given to local officials and also kept for the RSOs’ personal
use. The investigation confirmed the allegations and on January 26, 2005, the
Director General of the Bureau of Human Resources notified one of the three
RSOs that he was to receive a 90-day suspension without pay. Administrative
action on the other two RSOs is pending.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   51
      OIG opened an investigation into allegations that a Department of State employee
      was operating a real estate business from his office. The investigation confirmed
      that the employee was operating a real estate business during official business
      hours, used government telephones, and had taken sick leave to attend real estate
      closings. On March 1, 2005, the Bureau of Human Resources notified the
      employee of a 14-day suspension of him for misuse of government property,
      improper use of sick leave, and misuse of official time.

      OIG opened an investigation into allegations received from the Federal Bureau of
      Investigation that a Department employee made false statements in an affidavit she
      submitted to the former Immigration and Naturalization Service. The investigation
      determined that the employee used Department letterhead stationery to execute an
      affidavit supporting her ex-husband’s application for permanent residency. In the
      affidavit, the employee stated that she was the applicant’s wife, when in fact they
      had already been divorced. On May 27, 2004, the employee pleaded guilty to two
      counts of making false statements (18 U.S.C. 1001). On February 18, 2005, the
      Bureau of Human Resources notified the employee that she would be fired.


      VISA FRAUD
      OIG joined an investigation with the Department of Labor, the Internal Revenue
      Service, the Federal Bureau of Investigation, and the Department of Homeland
      Security regarding information that an employment and immigration services
      company was falsifying employment visa applications, on behalf of its employer
      clients, by claiming the employers had a need for skilled workers that could not be
      filled from the local pool of U.S. workers. The investigation determined that false
      certifications were used to apply for visas for foreign nationals to enter the United
      States. A search warrant was executed at four locations, including the offices of
      the employment and immigration services company. On February 10 and March 9,
      2005, seven individuals were indicted in the U.S. District Court, Eastern District of
      Virginia, on charges of conspiracy to commit immigration fraud, conspiracy to
      encourage an alien to unlawfully enter the United States, money laundering, and
      misprision of a felony. The investigation is ongoing.




52   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
EMBEZZLEMENT
OIG opened an investigation, of a Department employee, after information was
received that the employee was selling U.S. government purchased cellular
telephones and airtime to private individuals. The investigation confirmed that the
employee, who oversaw his office cellular telephone program, purchased cellular
telephones for resale, to friends and family members, with the bills being paid by
the Department. The employee resigned from the Department, after learning that
his illegal activities had been discovered, to avoid being fired. The employee
pleaded guilty in the U.S. District Court, Eastern District of Virginia, to theft of
cellular telephones and airtime. On February 25, 2005, the employee was
sentenced to 6 months home confinement, 3-years probation, a $100 fine, and
payment of restitution of $21,757.62.

On December 1, 2004, a Management Assistance Report was given to the Acting
Inspector General and recommended changes in the management of this cellular
telephone program to prevent the recurrence of these types of thefts.


MANAGEMENT ASSISTANCE REPORT
OIG investigated the use of official vehicles at an embassy and discovered that
embassy employees had routinely used official vehicles for unofficial purposes
without reimbursing the embassy. The embassy vehicle records were so poorly kept
that the precise amount of unofficial use could not be determined. On
December 13, 2004, a Management Assistance Report was sent to the Department
of State bureau overseeing the embassy. The report recommended that the embassy
establish clear guidelines on the use of embassy vehicles and ensure better record-
keeping of the official vehicle logs.


FOLLOW-UP ACTIONS


EMPLOYEE MISCONDUCT

OIG received information that a senior Foreign Service officer assigned to a U.S.
embassy, routinely used embassy vehicles for personal errands, without reimbursing



Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   53
      the Department of State as required by regulations. OIG’s investigation
      determined that the officer extensively used embassy vehicles for personal reasons,
      including driving to and from the embassy, transporting the officer’s children to and
      from school, and transporting relatives to and from the airport.

      On January 25, 2005, the Bureau of Human Resources (HR) issued the officer a
      30-day suspension. HR also notified the officer that she owed the government
      $5,378.50, for her personal use of the vehicle, and that the debt was being referred
      to the Bureau of Resource Management for collection action. (See OIG Semi-
      Annual Report, March 31, 2004 to September 30, 2004, pp 80-81)




      VISA FRAUD

      A joint investigation with the Bureau of Diplomatic Security, Visa Fraud Branch,
      determined that an immigrant visa chief (IVC) at a U.S. embassy married a woman
      before divorcing his first wife and then petitioned for immigrant visas for his
      second wife and her son. The IVC submitted a false divorce certificate to the
      Department of Homeland Security to have the petitions expedited and approved.
      As a result of the investigation, the IVC was relieved of his duties and returned to
      the United States where he was arrested for visa fraud. On September 9, 2004, the
      IVC pleaded guilty in the U.S. District Court, Eastern District of Virginia, to one
      count of visa fraud and was sentenced to 3 years of supervised release and 300
      hours of community service. He also resigned from the Foreign Service. (See OIG
      Semiannual Report, March 31, 2004 to September 30, 2004, pp 81)




      EMBEZZLEMENT

      OIG previously reported on a joint investigation with the Federal Bureau of
      Investigation of the theft of $2.7 million in post assignment travel funds by a
      former Foreign Service national (FSN) at U.S. Embassy Lusaka, Zambia. The
      investigation resulted in the arrest and indictment of the former FSN and two other
      Zambians involved in the theft. On February 24, 2004, the Zambian Police
      Service charged the three Zambians under a 114-count criminal indictment.




54   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
On August 3, 2004, Zambian prosecutors consolidated some of the charges and
dismissed others that resulted in a superseding indictment of 72 counts against the
3 defendants. In November 2004 an OIG investigator testified at the trial of the
former FSN and the other two Zambians. The trial will continue in Zambia, during
March and April 2005, with two Foreign Service officers and several FSNs
scheduled to testify. (See OIG Seminnual Report, March 31, 2004 to September 30,
2004, pp 82-83)


Types of Cases*                   Passport & Visa Fraud,            14%

                                  Employee Misconduct,              17%

                                  Embezzlement & Theft,             23%

                                  False Statements & Claims,        14%

                                  Contract & Procurement Fraud, 16%

                                  Conflict of Interest,             11%

                                  All Other,                         4%

                         * = Does not equal 100% due to rounding.




Hotline

                            Held for action within OIG                  18

                            Referral to other offices for action       118

                            No action Necessary                         75

                            Total Allegations received                 211




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   55
56   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
        APPENDIX 1: INVESTIGATIVE ACTIVITIES


Criminal Investigation Activities
Indictments/Information…………………………………………………                                                               7
Convictions............................................................................................. 2
Sentencings
- Jail………………………………………………………………....                                                                       0
- Probation………………………………………………………..... 72 mos.
Referrals for Prosecution.........................................................................       10
Referrals for Prosecution Declined………………………………...........                                                6
Criminal Judgments/Restitutions………… ………………………….. $21,858

Civil Investigative Activities
Civil Referrals……………………………………………………………                       3
Civil Declinations………………………………………………………..                    0
Civil Recoveries………………………………………........... ........... $126,052

Administrative Investigative Activities
Pending Administrative Referrals……………………………………….. 18
Personnel Actions
- Removals…………………………………………………………....               3
- Suspensions…………………………………………………………                5
- Reimbursements…………………………………………………….             1
Management Assistance Reports……………………………………….      2
Administrative Recoveries…………………………………………….. $5,379

                                       Investigative Workload

Cases pending (9/30/04)……………………………………………………                                                          60
New cases opened………………………………………………………….                                                              31
Cases closed……………………………………………………………..…                                                               21
Cases pending (3/31/05)…………………………………………………....                                                       70
Preliminary inquiries pending (9/30/04)……………………………………..                                               7
Preliminary inquiries opened………………………………………………..                                                     97
Preliminary inquiries closed………………………………………………...                                                    22
Preliminary inquiries converted to cases…………………………………......                                           4
Preliminary inquiries pending (3/31/05)…………………………………......                                           78




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005              57
58   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
           APPENDIX 2: REPORTS ISSUED

Report Number                                    Report Title

AUD/CG-05-04            Review of Direct Labor & Indirect Expense Rates
                         Proposed by Moore Ruble Yudell & Its
                        Subcontractors                                               10/2004
AUD/G-05-08             Application of Agreed-Upon Procedures on Costs Claimed
                        by [a Department Contractor]. Under U.S. Department of State
                        Delivery Order #SLMAQM 03 F 5106                             11/2004
AUD/CG-05-13            Agreed-Upon Procedures Review of Daily Direct Labor,
                        Aerial Support Equipment & Indirect Expense Rates
                        Proposed by [a Department Contractor].
                        Contractor’s Accounting System & Time Keeping
                        Procedures                                                   02/2005
AUD/CG-05-18            Survey of Department of State’s Funding for Iraq             03/2005
AUDCG-05-22             Audit of the Kellogg Brown & Root Termination for
                        Convenience Proposal for Contract S-FBOAD-99-D0016,
                        Task Order 57, Havana, Cuba                                  03/2005
AUD/CG-05-23            Review of Selected Awards to MiraMed Institute               03/2005
AUD/CG-05-27            Quality Control Review of KPMG LLP                           03/2005
AUD/FM-05-06            Assessment of the Certification & Accreditation, Change
                        Management, & Patch Management Processes                     12/2004
AUD/FM-05-07            Vulnerability Assessment of the Foreign Affairs
                        Retirement & Disability System                               12/2004
AUD/FM-05-09            Audit of U.S. Department of State 2004 & 2003 Principal
                        Financial Statements                                         11/2004
AUD/FM-05-10            Agreed-Upon Procedures Report on Federal
                        Intragovernmental Activity & Balances                        12/2004
AUD/FM-05-11            Independent Auditor’s Report on Special-Purpose
                        Financial Statements                                         11/2004
AUD/FM-05-21            Management Letter as of & for the years ended
                        September 30, 2004 & 2003                                    03/2005
AUD/IQO-05-16           Review of Agreed Upon Procedures for the Verification of
                        Excessive Fuel Charges in Support of the Jordan
                        International Police Training Center                         03/2005
AUD/IQO-05-24           Agreed-Upon Procedures Review of Indirect Rates and
                        Equipment Delivery Charge Proposed By Armor Group
                        North America And Review of Accounting System                03/2005



Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   59
      AUD/PPA-05-01            Review of Department of State’s Overseas Purchase Card
                               Program                                                      12/2004
      AUD/PPA-05-02            Review of Lighting Standards for Compound Physical
                               Security Upgrades Projects                                   11/2004
      AUD/PPA-05-03            Review of Procurement & Property Operations at
                               Embassy Bamako                                               11/2004
      AUD/PPA-05-17            Review of the Bureau of African Affairs Unauthorized
                               Commitments                                                  03/2005
      AUD/PR-05-19             Independent Attestation Review of Annual Accounting of
                               Drug Control Funds by the Department of State                01/2005
      AUD/PR-05-20             Controls Over the Department of State’s Language
                               Incentive Pay Allowance Payments                             02/005
      ISP-C-05-01              Review of Treaty Management Responsibilities in the
                               Office of Treaty Affairs                                     12/2004
      ISP-CA-05-52             Management Review of Visa & Passport Fraud
                               Prevention Programs                                          12/2004
      ISP-CA-05-55             Review of Watch List Vulnerabilities                         02/2005
      ISP-CA-05-56             Nonimmigrant Visa Adjudications: The Visa Referral
                               Process                                                      03/2005
      ISP-CA-05-58             NIV Adjudications: Standards for Refusing Applications       03/2005

      ISP-I-05-02A             Inspection of Emb. Amman, Hashemite Kingdom of Jordan 03/2005
      ISP-I-05-03              Inspection of the Bureau of Political-Military Affairs       03/2005
      ISP-I-05-04A             Inspection of Emb. Cairo & American Presence Post in
                               Alexandria, Egypt                                            03/2005
      ISP-I-05-06A             Inspection of Emb. Paris, France, & Constituent Posts        03/2005
      ISP-I-05-07              Financial Support and Training Office, Paris, France         02/2005
      ISP-I-05-08              Inspection of US Mission to the United Nations
                               Educational, Scientific & Cultural Organization Paris        03/2005
      ISP-I-05-09              Inspection of the U.S. Mission to the Organization for
                               Economic Cooperation & Development Paris                     03/2005
      ISP-I-05-10A             Inspection of Emb. Bucharest, Romania                        03/2005
      ISP-I-05-11A             Inspection of Emb. Sofia, Bulgaria                           03/2005
      ISP-I-05-12A             Inspection of Emb. Chisinau, Moldova                         03/2005
      ISP-I-05-26              U.S. Section of the International Boundary and
                               Water Commission                                             03/2005
      ISP-I-05-45              Inspection of the Bureau of Diplomatic Security,
                               Directorate of Security Infrastructure                       12/2004
      ISP-I-05-49              Inspection of the Bureau of Arms Control                     12/2004
      ISP-I-05-50              Inspection of the Bureau of Nonproliferation                 12/2004
      ISP-I-05-51              Inspection of the Bureau of Verification & Compliance        12/2004




60   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
ISP-I-05-54             Summary Report on Public Diplomacy at the Department
                        of State                                                     03/2005
ISP-IQO-05-53           Review of Off-Site Support to Emb. Baghdad & Constituent
                        Units                                                        12/2004
ISP-IQO-05-57           Review of the Staffing of Embassy Baghdad                    03/2005
ISP-S-05-02A            Security Management Inspection of Emb. Amman, Jordan 03/2005
ISP-S-05-04A            Security Inspection of Emb. Cairo, Egypt, & the American
                        Presence Post in Alexandria                                  03/2005
ISP-S-05-06A            Security Management Inspection of Emb. Paris, France, &
                        the US Missions to the Organization for Economic
                        Cooperation & Development & to the United Nations
                        Educational, Scientific, & Cultural Organization             03/2005
ISP-S-05-10A            Security Management Review of Emb. Bucharest, Romania 03/2005
ISP-S-05-11A            Security Management Review of Emb. Sofia, Bulgaria           03/2005
ISP-S-05-12A            Security Management Review of Emb. Chisinau, Moldova         03/2005
IT-I-05-01              Summary of FY 2004 Information Systems Security Issues 03/2005
IT-I-05-02              Regional Information Management Center Frankfurt             03/2005
IT-I-05-03              Regional Information Management Center Ft. Lauderdale        03/2005
SIO-A-05-11             Program Management Review (Phase I) of the
                        Anti-Terrorism Assistance Program                            01/2005
SIO-A-05-13             Protection of Classified Information at State Department
                        Headquarters                                                 02/2005




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   61
62   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
                APPENDIX 3: SAVINGS AND MORE
                 EFFECTIVE USE OF RESOURCES
                                                           Table 1
                                            Inspector General Issued Audit Reports
                                                    With Questioned Costs

                                                      Number             Questioned               Unsupported
                                                      of Reports          Costs                   Costs
                                                                                 (Dollars in Thousands)
A.   For which no management
     decision has been made by the
     commencement of the reporting
     period                                           16                 16,392                   12,515
B.   Which were issued during the
     reporting period                                 2                   5,099                        264
C.   For which a management decision
     was made during the report period -
     based on formal administrative or
     judicial appeal                                  9                  7,144                        2,107
     (i) dollar value of disallowed                                      1,653
     (ii) dollar value of costs not disallowed                           5,491
D.   For which no management decision
     has been made by the end of reporting
     period                                           9                  16,000                      10,672
     Reports for which no
     management decision was made
     within 6 months of issuance                      5                  9,248                    10,672

                                                           Table 2
                                             Inspector General Issued Audit Reports with
                                         Recommendations That Funds Be Put To Better Use

                                                      Numbers                         Dollar Value
                                                      of Reports                     (in thousands)
A.   For which no management decision has
     been made by the commencement the
     reporting period.                                2                                        670
B.   Which were issued during the reporting
      period.                                         4                                     21,753

     Subtotals (A+B)                                  6                                     22,423

C.   For which a management decision was
     made during the reporting period.                0                                          0
     (i) dollar value of recommendations that
       were agreed to by management
        –based on proposed management action
        –based on proposed legislative action
     (ii) dollar value of recommendations
        that were not agreed to by management
D.   For which no management decision has been
     made by the end of the reporting period.         4                                     22,423
     Reports for which no management decision
     was made within 6 months of issuance             2                                        670


       Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005         63
      Significant management success in resolving
      and implementing recommendations

      Task Force to Merge the Bureaus of Arms Control and Nonproliferation

      In its inspections of the Bureaus of Arms Control (ISP-I-04-41) and
      Nonproliferation (ISP-I-04-50), issued in December 2004, OIG stated that a
      merger and redefinition for the bureaus would eliminate unnecessary duplication,
      ensure accountability, improve management, and focus staff more effectively on
      their primary missions. OIG recommended that the Department establish a task
      force to craft the merger of the Bureau of Arms Control and the Bureau of
      Nonproliferation.

      In response to the draft report, the Secretary of State asked the Under Secretary for
      Management to establish a task force charged with evaluating the current
      organization of the T family bureaus, making recommendations for necessary
      changes and preparing an implementation strategy for structural changes.
      Implementaion of those recommendations is ongoing.

      Reductions in Visa Processing Times

      In its inspection of the Bureau of Educational and Cultural Affairs (ISP-I-04-07A,
      February 2004) OIG found that the Student and Exchange Visitor Information
      System needed improved communication and coordination between ECA offices
      and other responsible federal agencies. OIG recommended that the bureau ensure
      that the Department’s designated Student and Exchange Visitor System liaison
      roles were clearly documented and implemented, that a training program be
      developed for Student and Exchange Visitor Information System users, and that
      designated liaison contacts share information on policy and regulation changes with
      Department of Homeland Security officials concerning the use of the Student and
      Exchange Visitor Information System.

      On February 18, 2005, the Departments of State and Homeland Security issued a
      statement announcing that improved visa and port of entry policies and programs
      had resulted in a significant reduction in visa processing times for those wishing to
      study or work in certain sensitive scientific or technical fields in the United States.
      The statement said that the Government Accountability Office had validated these
      efforts, noting that the addition of staff, investments in systems, additional
      guidance to officers, and interagency cooperation had resulted in significant
      declines in processing times.


64   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
Increase in Diversity Visa Fees

In its review of the Diversity Visa Program (Memorandum Report ISP-CA-03-
52, September 2003), OIG reported that, unlike other visa applications, the
current diversity visa processing fee was collected only from applicants selected
as “winners.” The U.S. government pays all costs not covered by the fee, which
CA estimated to exceed $840,000 in FY 2002. OIG recommended that the
Bureau of Consular Affairs request authority to collect processing fees from all
persons who apply for the diversity visa program.

In March 2005, the Department increased the Diversity Visa Lottery surcharge
from $100 to $375, to cover all costs of the program.


Reestablishing a Diplomatic Presence in Bangui, Central African Republic

OIG conducted a management assessment review of Embassy Bangui (ISP-I-04-
48) that was issued in September 2004. In the report, OIG found that U.S. interests
were receiving little attention in the Central African Republic, and American
facilities in the capital city were deteriorating, notwithstanding annual expenditures
of almost $2 million. OIG urged the Department to assign appropriate, effective
oversight over U.S. interests, however minimal they may be, as well as resources.
On October 27, 2004, a U.S. diplomatic presence was reestablished in Bangui, and
Embassy Bangui had resumed normal operations.

Discontinuation of the Domestic Revalidation of Nondiplomatic Visas

In its inspection of the Directorate of Visa Services in the Bureau of Consular
Affairs (ISP-CA-03-46, August 2003), OIG found that a potential border security
vulnerability existed in CA/VO’s procedures for revalidating nondiplomatic visas.
If applicants required interviews or security clearances, they were turned away and
instructed to apply at a U.S. mission abroad. CA/VO did not keep records of these
quasi-refusals or report them to law enforcement or intelligence agencies. OIG
recommended that the Department exercise the discretion provided in 9 FAM
41.111 (b) to stop revalidating nondiplomatic visas domestically. In July, 2004, the
Department discontinued the domestic revalidation service.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   65
      Minimizing Cashier Provided Accommodation Exchange Overseas

      In July 2004, OIG issued a memorandum report on Minimizing Cashier-Provided
      Accommodation Exchange Overseas (ISP-I-04-34). OIG found that although local
      banking facilities and automated teller machines (ATMs) were widely available and
      adequate in some countries, embassies continued to use U.S. government funds to
      pay cashiers to provide routine accommodation exchange services for mission
      employees. OIG recommended that the Department issue a cable encouraging
      posts to use local banking facilities and automated teller machines.

      The Department has since encouraged posts to use local banking facilities,
      including ATMs, to facilitate provision of accommodation exchange services
      instead of the Embassy cashier services wherever possible.




66   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
                                              United States Department of State
                                              and the Broadcasting Board of Governors

                                               Office of Inspector General




                                                  April 29, 2005


MEMORANDUM


TO:             Mr. Kenneth Y. Tomlinson, Chairman
                Broadcasting Board of Governors

FROM:           Cameron R. Hume
                Acting Inspector General

SUBJECT:        Semiannual Report to Congress,
                October 1, 2004 to March 31, 2005


I am pleased to transmit to you the Office of Inspector General’s Semiannual Report to
the Congress for the period ending March 31, 2005. During this reporting period, OIG
reviewed and monitored programs, activities, and operations of the Broadcasting Board
of Governors (BBG).

OIG recently reorganized to realize greater efficiency and effectiveness in conducting its
work. A peer review by the Department of Interior’s OIG that identified concerns with
OIG’s audit structure was central to the decision to reorganize. OIG is now more
closely aligned with its core functions of audits, inspections, and investigations. OIG
remains committed to delivering high-quality reviews of Broadcasting Board of
Governors’ (BBG) programs and operations.

During this period OIG assessed BBG’s program management and performance and
management controls at the Delano Transmitting Station. Some of the challenges
included technical staff attrition, dated equipment, and state regulatory restrictions and
rules. OIG determined that the station needs to take deliberate steps to ensure it has
skilled employees at the ready.
In accordance with the Chief Financial Officers Act, as amended, OIG oversaw the
audit of BBG’s 2004 Balance Sheet by the independent external auditor. The
accompanying Statement of Net Cost, Statement of Changes in Net Position, Statement
of Budgetary Resources, and Statement of Financing were not audited. Although BBG
received an unqualified opinion, the report and the separate management letter brought
several matters of concern to BBG management’s attention.

OIG also reviewed the interagency agreement between BBG and USAID to use Radio
Sawa to fill the void in communications in post-conflict Iraq.
This report is required by the Inspector General Act of 1978, as amended, and covers
the work of this office during the period indicated. The Act requires that you transmit
the report to the appropriate committees of the Congress by May 31, together with any
comments you may wish to make.
BROADCASTING BOARD OF GOVERNORS
             AUDITS


 Audit of the Broadcasting Board of Governors’
FY 2004 Principal Financial Statements
(AUD/FM-05-12)

The Chief Financial Officers Act, as amended, requires that BBGs principal
financial statements be audited. The objectives of the audit are to report on
whether the financial statements fairly present BBG’s financial position and results
of financial operations in accordance with accounting principles generally accepted
in the United States, to determine whether BBG had an internal control structure
that provided reasonable assurance of achieving internal control objectives, and to
determine whether BBG complied with applicable laws and regulations.

An independent external auditor issued an unqualified opinion on BBG’s Balance
Sheet as of September 30, 2004, but was unable to audit the accompanying
Statement of Net Cost, Statement of Changes in Net Position, Statement of
Budgetary Resources, and Statement of Financing. Although an unqualified
opinion was issued on the Balance Sheet, the report brings to management’s
attention concerns about the inadequacy of internal control over BBG’s financial
and accounting system, the lack of review of overall management controls, and the
noncompliance of BBG’s financial management system with several laws and
regulations.



Management Letter Related to the Audit of the
Broadcasting Board of Governors’ (BBG)
Balance Sheet as of 9/30/04 (AUD/FM-05-14)

Under generally accepted auditing standards, auditors performing financial
statement audits are encouraged to report, in a separate management letter, internal
control weaknesses that do not rise to the level necessary to be reported in the




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   69
      financial statement opinion. During an audit of BBG’s Balance Sheet as of
      September 30, 2004, an independent external auditor identified internal control
      weaknesses relating to BBG’s payroll documentation, accounts receivable balance,
      accounts payable records, property records and balances, and suspense account
      balance. The external auditor recommended that BBG take appropriate action to
      address these weaknesses.




70   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
        INTERNATIONAL BROADCASTING
                 OVERSIGHT



Review of the Broadcasting Board of Governors’
Progress in Linking Its Budget Process and
Strategic Planning (IBO-A-05-01)

OIG initiated this review to assess how well the BBG has integrated its strategic
planning and budgetary process. Two Government Accountability Office reports in
the last three years have addressed BBG’s strategic planning and performance
measures. The first discussed BBG’s efforts at creating a strategic plan, and the
second looked at, among other things, whether or not the new strategic approach
had measurable program objectives. OIG’s review sought to supplement those
reports and focused specifically on the extent to which BBG met the requirements
of the Government Performance and Results Act of 1993 and the President’s
Management Agenda in integrating its budget process with its strategic planning.
OIG found that BBG:

•       has made progress in developing its performance measures, the first steps in
        linking the strategic plan with the budget process;

•       was using strategic planning to drive its budget and improve the way it
        budgeted its capital planning;

•       was making progress in using OMB’s PART in the budget process; and

•       was creating measures and strategic plans for its support divisions that
        complemented its overall strategic plan.

Recognizing BBG’s steady progress, OIG had no formal recommendations and
encouraged BBG to continue its work toward full compliance with legislation in
this area.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   71
      Review of Radio Sawa Support to the Transition
      in Post-Saddam Iraq (IBO/IQO-A-05-02)

      To address the communication deficiencies in post-conflict Iraq, the USAID, Office
      of Transition Initiatives entered into an interagency agreement with the BBG
      International Broadcasting Bureau (BBG/IBB) to use Radio Sawa of the Middle
      East Radio Network to fill the information void.

      The objectives of OIG’s review were to determine whether:

      •        USAID funds transferred to BBG were used effectively to enhance the
               dissemination of humanitarian and other information in Iraq; and

      •        BBG successfully launched the three program components of the
               interagency agreement:

      •        establishing a stringer network;

      •        airing programs that address humanitarian and reconstruction efforts; and

      •        conducting audience research.

      According to USAID officials, BBG did not use the transferred funds to enhance
      the dissemination of reports of humanitarian and related information to Iraq. As a
      result USAID provided only partial funding to BBG.

      BBG partially met the second objective:
      •    the lack of skilled, trained stringers made some reporting unusable; and

      •        BBG did not properly coordinate the audience research part of the
               agreement with USAID.

      BBG did not provide periodic performance reports or purchase specific equipment.
      According to USAID officials, requests for information from BBG went
      unanswered, as did requests for written performance status reports.




72   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
Inspection of the International Broadcasting
Bureau’s Delano, California, Transmitting
Station (IBO-I-05-05)

OIG assessed the transmitting station’s program management, program
performance, and management controls. The Delano Transmitting Station provides
shortwave transmissions to Cuba, the Caribbean, Latin America, and the Pacific
Ocean and serves as a gateway for the Satellite Interconnect System, which serves
the Far East, the Caribbean, Central and Latin America, and the Pacific and Indian
Ocean regions.

The inspection found the transmitting station faced several challenges. These
included:
       •      fulfilling its mission with fewer employees;

        •        managing the transition from older, experienced employees to
                 newer, less experienced ones;

        •        maintaining dated equipment for shortwave broadcasting;

        •        working within a budget subject to California’s electrical power
                 supply and pricing situation; and

        •        working under California’s restrictions and strict environmental
                 rules.

In 2003, Delano lost seven employees to retirement or attrition; three technical
positions remain vacant, and over the next three years, three more employees will
be eligible to retire. Station management said effective scheduling of remaining
employees has helped keep pace with maintenance, repairs, and emergencies.
Nonetheless, the station needs to take more deliberate steps to ensure employee
succession and readiness.




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   73
74   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
             APPENDIX 1: INVESTIGATIVE
                    ACTIVITIES



                 Workload                                           Number

                 Cases pending 9/30/04                                      1
                 New cases opened                                           2
                 Cases closed                                               1
                 Cases pending 3/31/05                                      2

                 Preliminary   inquiries   pending 9/30/04                  0
                 Preliminary   inquiries   opened                           0
                 Preliminary   inquiries   closed                           0
                 Preliminary   inquiries   converted to cases               0
                 Preliminary   inquiries   pending 3/31/05                  0

                 Total Judicial Actions                                     0
                 Prosecutive Referral                                       0
                 Prosecutive Declination                                    0
                 Criminal Indictment                                        0
                 Criminal Conviction                                        0
                 Criminal Sentencing                                        0
                 Time Probation                                             0 Months
                 Court Ordered Fine                                         $0
                 Court Ordered Restitution                                  $0

                 Total Investigative Recoveries                             $0




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   75
76   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
          APPENDIX 2: REPORTS ISSUED


Report Number                      Report Title

AUD/FM-05-12             Audit of FY 2004 BBG Principal
                         Financial Statements                               11/2005

AUD/FM-05-14             Management Letter Related to the
                         Audit of the Broadcasting Board
                         of Governors’ (BBG) Balance Sheet
                         as of 9/30/04                                      01/2005

IBO/IQO-A-05-02          Review of Radio Sawa Support
                         to the Transition in Post-Saddam Iraq              1//2005

IBO-A-05-01              Review of the Broadcasting Board of
                         Governors’ Progress in Linking Its
                         Budget Process and Strategic Planning              12/2005

IBO-I-05-05              Inspection of the International
                         Broadcasting Bureau’s Delano, California,
                         Transmitting Station                               03/2005




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   77
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES




78   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
                 APPENDIX 3: SAVINGS &
            MORE EFFECTIVE USE OF RESOURCES

                                                    Table 1
                                                        Table I
                                          Inspector General Issued Audit Reports
                                                  With Questioned Costs

                                                         Number of Reports         Questioned Costs
                                                                                   (Dollars in Thousands)
    A.        For which no management
              decision has been made by
              the commencement of the
              reporting period                                      0                        0
    B.        Which were issued during
              the reporting period                                  0                        0
              Subtotals (A+B)                                       0                        0
    C.        For which a management
              decision was made during
              the reporting period – based on
              formal administrative or judicial
              appeal
                   (i) dollar value or disallowed                   0                        0
                   (ii) dollar value of costs                       0                        0
                    not disallowed
    D.        For which no management
              decision has been made by the
              end of the reporting period                           0                        0
              Reports for which no
              management decision was made
              within 6 months of issuance                           0                        0

                                                        Table 2
                                              Inspector General Issued Audit Reports With
                                           Recommendations That Funds Be Put To Better Use

                                                        Numbers of Reports                   Dollar Value
                                                                                             (in thousands)
A. For which no management decision has
   been made by the commencement of the
   reporting period.                                           0                             0
B. Which were issued during the reporting
   period.                                                     0                             0
   Subtotals (A+B)                                             0                             0
C.For which a management decision was
   made during the reporting period.                           0                             0
   (i) dollar value of recommendations that
   were agreed to by management
   –based on proposed management action
   –based on proposed legislative action
   (ii) dollar value of recommendations
   that were not agreed to by management
D. For which no management decision has
   been made by the end of the reporting period.               0                             0
   Reports for which no management
   decision was made within 6 months
   of issuance.                                                 0                            0



Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005              79
80   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
                       LIST OF ABBREVIATIONS

    AC                               Bureau of Arms Control
    A/LM/AQM                         Bureau of Administration, Office of Logistics
                                     Management, Office of Acquisitions Management
    AF/EX/IRM                        Bureau of African Affairs, Office of the
                                     Executive Director, Information Resource
                                     Management Division
    ATA                              Anti-terrorism Assistance
    BBG                              Broadcasting Board of Governors
    CA                               Bureau of Consular Affairs
    CIO                              Chief Information Officer
    CLASS                            Consular Lookout and Support System
    DHS                              Department of Homeland Security
    DS                               Bureau of Diplomatic Security
    FARADS                           Foreign Affairs Retirement and Disability System
    FSI                              Foreign Service Institute
    FSTO                             Financial Support and Training Office
    ICASS                            International Cooperative Administrative Support
                                     Services
    IITEWA                           Information and Infrastructure Technologies
    INL                              International Narcotics and Law Enforcement
                                     Affair
    IRM/OIA                          Bureau of Information Resource Management,
                                     Office of Information Assurance
    IRRF                             Iraq Relief and Reconstruction Funds
    ISSO                             Information systems security officer
    IT                               Information Technology
    JIPTC                            Jordan International Police Training Center
    LGB                              Leonard G. Birnbaum
    NIV                              Nonimmigrant visa


Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   81
           OBO                              Bureau of Overseas Buildings Operations
           OIG                              Office of Inspector General
           OMB                              Office of Management and Budget
           PART                             Program Assessment Review Tool
           RIMC                             Regional Information Management Center
           RM                               Bureau of Resource Management
           RSO                              Regional security officer
           SSN                              Social security number
           USAID                            U.S. Agency for International Development
           USIBWC                           U.S. International Boundary and Water
                                            Commission
           USOECD                           U.S. Mission to the Organization for Economic
                                            Cooperation and Development
           USUNESCO                         U.S. Mission to the U.N Educational, Scientific
                                            and Cultural Organization
           VC/VO                            Bureau of Verification and Compliance, Office of
                                            Verification Operations




82   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
            INDEX OF REPORTING REQUIREMENTS
        INSPECTOR GENERAL ACT OF 1978, AS AMENDED



REQUIREMENT SUBJECT                                                          PAGE NUMBERS

Section 4(a)(2) Review of legislation and regulations                        9
Section 5(a)(1)   Significant problems, abuses, and deficiencies             11-47, 65-69

Section 5(a)(2)   Significant recommendations for corrective action          11-47, 65-69

Section 5(a)(3)   Prior significant recommendations unimplemented            none

Section 5(a)(4)   Matters referred to prosecutive authorities                49-51

Section 5(a)(5)   Information or assistance refused                          none

Section 5(a)(6)   List of reports issued                                     57-59 & 73

Section 5(a)(7)   Summaries of significant reports                           11-47, 65-69

Section 5(a)(8)   Audit reports–questioned costs                             61& 75

Section 5(a)(9)   Audit reports–funds to be put to better use                61 & 75

Section 5(a)(10) Prior audit reports unresolved                              61 & 75

Section 5(a)(11) Significant revised management decisions                    none

Section 5(a)(12) Significant management decisions with which
                 OIG disagreed                                               none




Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005   83
                FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                        of Federal programs and resources
                                 hurts everyone.

                               Call the Office of Inspector General
                                            HOTLINE
                                            202/647-3320
                                        or 1-800-409-9926
                                 or e-mail oighotline@state.gov
                               to report illegal or wasteful activities.

                                       You may also write to
                                    Office of Inspector General
                                     U.S. Department of State
                                       Post Office Box 9778
                                       Arlington, VA 22219

                              Please visit our website at oig.state.gov

                                 Cables to the Inspector General
                                should be slugged “OIG Channel”
                                     to ensure confidentiality.




84   Office of Inspector General Semiannual Report to the Congress, October 1, 2004 to March 31, 2005
